<html>
<title> - [H.A.S.C. No. 116-8] TRANSGENDER SERVICE IN THE MILITARY POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                          [H.A.S.C. No. 116-8]

               TRANSGENDER SERVICE IN THE MILITARY POLICY

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 27, 2019


                                     
 
 
 
 
 
 
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
  

                               _______

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
36-234                     WASHINGTON : 2020 


















                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
                Craig Greene, Professional Staff Member
                          Dan Sennott, Counsel
                         Danielle Steitz, Clerk


































                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     3
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Dremann, LCDR Blake, U.S. Navy...................................     5
Ehrenfeld, Dr. Jesse M., MD, MPH.................................    13
King, Staff Sergeant Patricia, U.S. Army.........................    10
Peace, CAPT Jennifer, U.S. Army..................................     8
Stehlik, CAPT Alivia, U.S. Army..................................     6
Stewart, James N., Performing Duties of the Under Secretary of 
  Defense for Personnel and Readiness, Department of Defense; 
  accompanied by VADM Raquel C. Bono, USN, Director, Defense 
  Health Agency..................................................    30
Wyatt, Hospital Corpsman Akira, U.S. Navy........................    12

                                APPENDIX

Prepared Statements:

    Dremann, LCDR Blake..........................................    56
    Ehrenfeld, Dr. Jesse M.......................................    93
    King, Staff Sergeant Patricia................................    79
    Peace, CAPT Jennifer.........................................    71
    Speier, Hon. Jackie..........................................    53
    Stehlik, CAPT Alivia.........................................    63
    Stewart, James N.............................................   104
    Wyatt, Hospital Corpsman Akira...............................    86

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Speier...................................................   121

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................   126
    Ms. Speier...................................................   125






















               TRANSGENDER SERVICE IN THE MILITARY POLICY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                      Washington, DC, Wednesday, February 27, 2019.
    The subcommittee met, pursuant to call, at 3:53 p.m., in 
Room 2118, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. The subcommittee will come to order. Good 
afternoon. Welcome everyone to the Military Personnel 
Subcommittee of the Armed Services Committee.
    I want to thank the Active Duty transgender service members 
who are with us today. Being here in the same room as senior 
Defense Department officials, in front of the Congress, 
representing yourselves and your fellow transgender service 
members, even in your civilian capacities, takes tremendous 
courage.
    Somehow testifying in front of Congress is not close to the 
most courageous thing you have done. From a young age you have 
made a series of difficult choices in order to live in a way 
that honors yourselves, your communities, and your country. 
Despite living in a nation where many discriminate against you, 
you made a choice that fewer and fewer Americans make, you 
joined the military and risked your lives and your families' 
well-beings for our safety.
    And how has the administration thanked you? By treating you 
like a liability, not an asset; by maliciously jeopardizing 
your careers and trivializing your sacrifice. Fourteen thousand 
seven hundred transgender individuals continue to serve ably. 
They are exceptional but also exceptionally normal. Like their 
fellow soldiers, sailors, airmen, and Marines, they proudly 
serve the Constitution, our nation, and the Commander in Chief.
    Our five witnesses today have shown uncommon bravery making 
choices throughout their lives, and today Lieutenant Commander 
Dremann, Captain Stehlik, Captain Peace, Hospital Corpsman 
Third Class Wyatt, and Staff Sergeant King have made the 
courageous choice to come advocate for themselves and their 
peers.
    I cannot tell you how much I appreciate your courage, your 
sacrifices, and your presence here today. Your examples inspire 
all of us.
    I feel strongly that any transgender person who can meet 
occupational standards should be allowed to serve in our Armed 
Forces. I believe that the transgender service ban is 
discriminatory, unconstitutional, and self-defeating. Open 
transgender service the last 2\1/2\ years has been an 
unequivocal success. When asked by Congress, the five service 
chiefs indicated that open service has not caused unit 
readiness or cohesion problems. Let me repeat that, when the 
chiefs were asked this question, they made it clear that unit 
readiness and cohesion were not impacted by the service of 
transgender service members. Instead, discharging transgender 
service members would hamper unit readiness, robbing formations 
of needed security personnel, intelligence officers, and 
leaders, without warning.
    Not allowing transgender service members to join the 
military would cost us recruits at a time so few Americans are 
willing to serve. Telling transgender service members they can 
serve but not fully express their identities would represent a 
return to the fraught paranoia of Don't Ask, Don't Tell. 
Transgender troops have the right to serve as their full selves 
and shouldn't have to live in fear of being found out.
    Our five witnesses and their peers deserve better than to 
have bias, misconception, and ignorance end or limit their 
careers. Let me tell you a little more about the five witnesses 
joining us today. They are subject-matter experts who have 
lived open transgender service and best understand how it 
affects our unit readiness and cohesion.
    Lieutenant Commander Blake Dremann, I think we are going to 
see a photograph, there she is. There he is. Lieutenant 
Commander Blake Dremann, has served in the Navy for over 15 
years since joining in 2003. He has been recognized for his 
exemplary service as the recipient of the USS Maine Logistics 
Excellence Award and the 2015 Vice Admiral Robert F. Bachelder 
Award. Thank you.
    Captain Olivia Stehlik, her picture in uniform, has been 
serving in the Army for over 10 years since commissioning out 
of West Point as a second lieutenant in 2008. She served as an 
infantry officer and completed the Ranger Course. Captain 
Stehlik deployed to Afghanistan with the Stryker Brigade Combat 
Team. Her personal awards include the Bronze Star Medal and the 
Meritorious Service Medal. Thank you.
    Captain Jennifer Peace has served for over 15 years since 
first enlisting in the Army in 2003 and commissioning as an 
officer in 2009. Through numerous combat deployments to Iraq 
and Afghanistan and positions of command she has excelled as an 
intelligence officer. Now selected for promotion to major, 
Captain Peace's awards include the Meritorious Service Medal 
and the Joint Service Commendation Medal. Thank you.
    Hospital Corpsman Third Class Akira Wyatt emigrated to the 
United States from the Philippines at age 15. She has served 
over 7 years since enlisting in the U.S. Navy in 2011 and 
continues to serve as a corpsman with Marine infantry units. 
She has deployed numerous times across the globe. Her personal 
awards include the Navy-Marine Corps Achievement Medal. Thank 
you.
    And Staff Sergeant Patricia King, a combat-tested infantry 
soldier who has served 19 years in the United States Army. She 
has deployed to Afghanistan 3 times and has served across the 
globe. Her awards include the Combat Infantryman's Badge and 
the Bronze Star. Thank you.
    Thank you all for your contributions to our nation and to 
our military. You are the first five transgender service 
members ever to testify openly in front of the House of 
Representatives, the very first five and how fitting that you 
do it not as individuals but as a team; how just that you can 
at last represent yourselves and your peers in front of this 
body.
    My colleagues and I need to hear from you, understand your 
stories, and appreciate what you have done. We have the 
opportunity to pass legislation such as the bill I introduced 
earlier this month that would allow transgender service members 
to join and also serve openly. Congress cannot let the 
administration's discriminatory impulses win out. Before we 
make that decision, we need to meet you face-to-face, to look 
you in the eye, to affirm that service by openly transgender 
troops is normal, it is necessary, and it is just.
    Today is an opportunity for all of us and the Department to 
learn about why you are serving and what you have accomplished. 
This is time to learn and not to peddle in misconceptions, bad 
science, and bias. So let us dispel the phony myths, there is 
simply no rigorous evidence that transgender service members 
hamper unit cohesion or readiness.
    A consensus of top medical and psychological bodies 
including the American Medical Association and the APA 
[American Psychiatric Association] have concluded that gender 
dysphoria does not pose a barrier to service. Transgender 
service members are deployable and effective. Their sense of 
duty, patriotism, and courage is no different from the other 
service members they stand shoulder to shoulder with. Those are 
the facts. Our witnesses will be able to illustrate them with 
their stories and their expertise.
    Also joining us is Dr. Jesse Ehrenfeld, the Joseph A. 
Johnson, Jr., Distinguished Leadership Professor, that is a 
mouthful, at the Vanderbilt University School of Medicine. He 
was elected to the American Medical Association board of 
trustees in 2014. He is a combat veteran who has deployed to 
Afghanistan. Dr. Ehrenfeld has worked for years to capture and 
support the lives of LGBTQ [lesbian, gay, bisexual, 
transgender, and queer] people. Thank you.
    Before hearing from our first panel let me offer our 
Ranking Member Kelly an opportunity to make his opening 
remarks.
    [The prepared statement of Ms. Speier can be found in the 
Appendix on page 53.]

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Kelly. Thank you, Chairman Speier.
    And I want to thank the three witnesses who came by my 
office earlier and met with me and told me your stories in 
person, out of the view of a camera. I want to thank you for 
doing that. And I want to thank all of you for being here on 
this panel today and for your service to this great nation, to 
our great nation.
    I wish to welcome both of our panels in today's hearing. 
The House Armed Services Committee has tirelessly focused over 
the past several years on rebuilding the readiness of our Armed 
Forces after years of demanding cuts. An integral part of 
rebuilding and maintaining readiness is recruiting and 
retaining qualified, effective, and able-bodied service 
members. To me personnel is the key--equipment can always be 
replaced but personnel is the key cornerstone in all military 
operations.
    One of the strengths of our military is that we draw from a 
diverse group of individuals from varied backgrounds and 
experiences. As former Secretary of Defense Mattis made clear, 
it is a bedrock principle of the Department of Defense [DOD] 
that any eligible individual who can meet the high standards 
for military service without special accommodations should be 
permitted to serve. In other words, the focus should remain on 
individuals' capabilities rather than establishing blanket 
policies for certain groups.
    In reading through the written statements of our first 
panel of currently serving transgender service members and also 
my meeting earlier, it is clear that you have all earned the 
respect and support of your commands, you have achieved much, 
and you continue to serve honorably. One common theme 
throughout all of your statements and our meeting earlier is 
that you all met, meet, or exceed the standards for accession 
and retention in the military and that you did not ask for nor 
would you have wanted reduced standards or special treatment.
    The transgender service policy must, like the medical 
accession standards for all recruits, include all 
individualized assessment of the recruit's medical and 
behavioral health to determine whether they are fit for 
service. It is when we put in place categorical exceptions for 
certain groups that we undermine our military's readiness.
    I look forward to hearing from our first panel about their 
experience in the service. Through your written statements and 
in the office, you indicate that you generally have supportive 
leaders throughout your transitions. I look forward to hearing 
your recommendations for how the services can improve their 
support.
    I am also interested to hear from our second panel about 
the differences between the current transgender service policy 
and the policy established by former Secretary of Defense 
Mattis. In reviewing that policy, it seems to me that it 
eliminates categorical distinctions between different groups of 
people in favor of individual assessments of a recruit's 
medical readiness based on standards applicable to all. I look 
forward to hearing the current status of that policy.
    It is an unfortunate reality that not every person who 
desires to serve in our military meets the stringent medical 
and behavioral health standards needed to maintain a ready and 
resilient force; however it only makes sense that any 
individual who can meet these standards be allowed to serve, be 
ready to fight, and be ready to fight tonight. It is all about 
readiness and deployability.
    With that I look forward to hearing from both of our 
panels.
    And I yield back, Chairman.
    Ms. Speier. Thank you, Mr. Kelly.
    I ask unanimous consent to allow members not on the 
subcommittee to participate in today's hearing and be allowed 
to ask questions after all subcommittee members have been 
recognized.
    Without objection so ordered.
    Each witness will have the opportunity to present his or 
her testimony and each member will have an opportunity to 
question the witnesses for 5 minutes. We respectfully ask the 
witnesses to summarize their testimony in 5 minutes or less. 
Your written comments and statements will be made part of the 
hearing record.
    With that let us begin with Commander Dremann, you have 
your opening statement.

           STATEMENT OF LCDR BLAKE DREMANN, U.S. NAVY

    Commander Dremann. Madam Chairwoman, Ranking Member Kelly, 
members of the committee, thank you for the opportunity to 
testify today about our experiences contributing to the 
readiness and lethality of our Armed Forces.
    I am Lieutenant Commander Blake Dremann and I am currently 
assigned as a supply chain manager for the DOD's nuclear 
enterprise. I have served in the Navy for 13 years and I have 
deployed 11 times, including 5 patrols on the USS Denver, 1 
year in Afghanistan with the 101st Airborne, and 5 strategic 
deterrent patrols onboard USS Maine, a ballistic missile 
submarine. I have been told three times that something other 
than my capability to do the job was the reason I wasn't worthy 
of an opportunity, first from my gender assigned at birth, 
second from my sexual orientation prior to transition, and 
third for my gender identity.
    In 2010, the Navy changed the policy preventing women from 
serving on submarines and in 2011, Congress repealed Don't Ask, 
Don't Tell. This opened the opportunity for me to be selected 
as one of the first women to integrate submarines and for the 
first time I did not have to hide my sexual orientation.
    Each time a mission- or a capability-irrelevant barrier was 
removed, I rose to the occasion. I succeeded as a submariner, 
and was ranked the top supply officer out of 14 supply officers 
in the squadron. However, despite all of my success, there was 
still something that needed to change. I began my transition in 
2013, 2 weeks prior to my fourth patrol and before policy had 
changed for transgender service members.
    The next year I was a more confident officer, a better 
leader, and a better shipmate. It culminated in my ship being 
named the top boat in the squadron--and in 2015, I won the Navy 
League's Vice Admiral Batchelder Award given to the top five 
junior officers for their contributions to the operational 
readiness of the fleet. Recently I have served on the Joint 
Staff at the Pentagon, and now I am at the Joint Logistics 
Command.
    I have continually exceeded expectations and met all the 
requirements to be fully deployable. Open service afforded me 
the opportunity to not only be who I am but also act as an 
educator and an advocate on behalf of my service members.
    In my personal capacity as President of SPART*A [Service 
Members, Partners, Allies for Respect and Tolerance for All], a 
nonprofit that supports and educates on behalf--and advocates 
on behalf of over 800 service members who happen to be 
transgender, it is my responsibility to know and understand the 
policies of all five armed services. My team and I have 
coordinated with policy experts and commanders from each 
service when there are delays or issues to help them be solved 
as quickly as possible. We have worked to eliminate any 
confusion in the transgender policy, providing practical 
implementation solutions and emphasizing that good leadership 
is the key to success.
    It was the same with women on submarines. It was the same 
with Don't Ask, Don't Tell. Good leaders can take a team and 
make it work. Great leaders mold their teams to exceed 
expectations because it doesn't matter if you are female or 
LGBT. What matters is that each member is capable and focused 
on the mission.
    Each time the military has incorporated a minority group, 
it was met with the same resistance, citing fears about mission 
accomplishment, unit cohesion, and morale. Each time it was 
forecast that sexual harassment charges or privacy issues would 
be rampant. For me, whether it was because of my sex at birth, 
my sexual orientation, or my gender identity, each accusation 
has been found completely without merit.
    We have busted myths that women can't be submariners, that 
gays and lesbians will be a detriment to unit cohesion, and 
that trans service members are incapable of service. Readiness 
and lethality of our military cannot be maintained by closing 
the doors to the best and brightest our country has to offer. 
It just so happens that some of the best and brightest we have 
to offer happen to be transgender.
    [The prepared statement of Commander Dremann can be found 
in the Appendix on page 56.]
    Ms. Speier. Thank you very much.
    Captain Stehlik.

          STATEMENT OF CAPT ALIVIA STEHLIK, U.S. ARMY

    Captain Stehlik. Ma'am, sir, good afternoon; members of the 
committee, good afternoon. My name is Captain Alivia Stehlik. 
Ever since I was a kid, I wanted to be in the Army. In 2004 I 
followed in my dad's footsteps and went to West Point. I 
graduated from the United States Military Academy in 2008 and 
commissioned as an infantry officer. I spent nearly 6 years as 
an infantry officer, as both a platoon leader and a staff 
officer, and during that time I discovered I had a passion not 
just for the Army but for taking care of soldiers.
    I decided to become an Army physical therapist because I 
believe that soldiers deserve medical providers who have walked 
in their shoes, who understand what their life is like and who 
have lived it. I have.
    I have led the long ruck marches. I have spent the long 
nights out in the field, in the rain, in the cold. I have 
endured weekend training. I have also earned my Ranger Tab and 
my Expert Infantry Badge as well as my Airborne and Air Assault 
Wings. I have lived a soldier's life.
    I graduated from the Army's physical therapy program in 
2016 and was assigned to the hospital at Fort Carson in 
Colorado. A year later, I heard that a brigade at Fort Carson 
would be deploying to Afghanistan and that their current 
physical therapist wouldn't be able to go because she was 
pregnant. We had a short discussion and a short time later, we 
switched places so that I could go to Afghanistan with the 
unit. The unit otherwise wouldn't have had a physical therapist 
for that deployment.
    Despite my desire to return to an infantry unit, I had some 
concerns. I had excelled as an infantry officer, earning top 
marks from my commanders, but I never quite fit in. In 2016 
when the ban on transgender service was lifted, I took steps to 
change that and began my transition. Given that my profession 
now is one in which I touch every person I meet, I was 
concerned that my transition might be a problem, that I might 
be less effective if people were uncomfortable with my life.
    This really brings me to the crux of today's hearing, what 
is the value of having transgender people in the military? 
Based on my experience both as a combat arms officer and as a 
medical provider in the United States Army, the answer is 
unequivocally that my transition, as well as those of so many 
others, has dramatically increased the readiness and lethality 
of every branch of the Armed Forces.
    I was mentally, emotionally, and physiologically stable 
throughout my transition and my work performance improved. 
Within my first 2 months of having a full patient case load as 
a new therapist, I was exceeding productivity standards for a 
seasoned therapist. I had only been out and on hormone 
replacement therapy for 6 months when I attended my branch's 
Captain's Career Course. Per Army regulations at that time, I 
passed the PT [physical training] test on male standards, 
graduated eighth out of 107 and was asked to come back and 
teach as a guest instructor.
    More recently I served as the physical therapist for the 
Eastern Region of Afghanistan where I treated over 1,700 
patients. My care resulted in a less than a 1 percent medical 
evacuation rate within my brigade from musculoskeletal 
injuries.
    It is clear that my presence in Afghanistan dramatically 
improved the readiness of my unit, but more than the numbers, I 
am proud that my soldiers trusted me and knew that I would go 
out of my way to take care of them. Soldiers matter to me, and 
they are the ones who will suffer if medical providers and 
leaders like me are banned from service.
    Has my transition made soldiers uncomfortable? Absolutely 
not. On the contrary, during my recent deployment to 
Afghanistan, soldiers opened up. They talked to me and told me 
things they never would have before, things that they said they 
have never told other people. I asked them why and the 
consistent answer was that they valued my authenticity, my 
courage in being myself; it allowed them to do the same thing.
    You can imagine how valuable that is both as a consultant 
to the commander and as a medical provider. I got the ground 
truth on what was going on both in their personal lives, their 
medical conditions, as well as the whole of the unit, and was 
able to relay those things to the commander as well as make 
better medical decisions for soldiers.
    While I was concerned that my presence might feel invasive 
to other women, I can tell you that they welcomed me into their 
lives, all of them, and into their living spaces with open 
arms; I was family.
    I returned to the United States from Afghanistan just over 
a month ago. My experience in Afghanistan has only confirmed 
what I already knew, that I am a more effective soldier, 
officer, and physical therapist having gone through transition. 
I belong in a combat arms unit taking care of my soldiers. I 
worked tirelessly to ensure that nothing could jeopardize that, 
and I continue to do so.
    It might be tempting to say that I am the exception but 
that is simply not true. Transgender service members around the 
world have done the same thing, add to the readiness and 
lethality of the United States military. Transgender people 
should be allowed to join the military. People who are in the 
military should be allowed to seek health care for whatever 
issues they might have, whether it is trans related or not, and 
those of us who are serving openly should be allowed every 
professional opportunity that every other soldier is.
    Thank you for your time and I look forward to your 
questions.
    [The prepared statement of Captain Stehlik can be found in 
the Appendix on page 63.]
    Ms. Speier. Thank you, Captain.
    Captain Peace.

          STATEMENT OF CAPT JENNIFER PEACE, U.S. ARMY

    Captain Peace. Chairwoman Speier, Ranking Member Kelly, and 
members of the committee, thank you for your time this 
afternoon. My name is Captain Jennifer Peace. I am a military 
intelligence officer currently assigned as the executive 
officer for the Iranian Division of the Defense Intelligence 
Agency at Joint Base Anacostia-Bolling. I have been in the 
military for 15 years, 5 of those as an enlisted service member 
and almost 10 years as a commissioned officer after going 
through the Officer Candidate Course in 2009.
    I was a Noncommissioned Officer of the Year in 2008 at Fort 
Huachuca, Arizona, and I was the Distinguished Honor Graduate 
for the Military Intelligence Captain's Career Course. I've had 
a number of accolades throughout my career but as Captain 
Stehlik said, I don't consider myself to be an exception--
rather, a prime example of what any other transgender service 
member could do.
    My most recent assignment was as a company commander built 
upon years of experience through deployments to Baghdad, Iraq; 
Kandahar, Afghanistan; Malaysia; Japan; South Korea; and other 
locations across the world. When I took command of the 
Headquarters Company, 189th Infantry Brigade, my brigade 
commander was asked, is this a social experiment, making a 
transgender person a company commander? My brigade commander, 
an infantry colonel, very clearly stated, I do not experiment 
with command positions. They are too important.
    I served as a company commander for 18 months, leading 
soldiers across the United States to train National Guard and 
Reserve units for preparing to deploy overseas. I went to the 
field with my unit. I trained with my unit. We were out for 
extended time periods in the field, in the deserts of 
California and the forests of Wisconsin. There were never any 
issues that arose due to being transgender, and between the 
time of the initial announcement of open service and in the 
tweets by the Commander in Chief, the fact that I was 
transgender never came up. It wasn't something that needed to 
be discussed and it is only since this issue has arisen again 
that it has even been talked about in my unit.
    I can certainly understand the issues of readiness as a 
company commander. Readiness and morale were two of my primary 
concerns as a company commander and what I can tell you is that 
no one cares about readiness more than a company commander. I 
will be the first person to kick out a transgender service 
member if they aren't able to meet the standards, if they are 
unable to deploy, engage, and destroy the enemies of the United 
States.
    There should be absolutely no adjustment of standards, no 
different standards for trans people than anyone else in the 
military; all we are asking for is the opportunity to meet and 
be held to those exact same standards.
    I think it is also important that we disabuse ourselves of 
the fact that this policy only impacts those who would like to 
join the military, that it doesn't affect Active Duty trans 
service members. The first thing that will happen is all those 
who are currently serving will be locked into their career 
where they can no longer advance. Enlisted soldiers cannot 
become warrant officers, they cannot become officers in the 
United States military. If you are required to leave service 
for any period, you will not be allowed to rejoin. If there are 
any programs that you are attempting to get into, such as going 
to college, that will require you to exit and leave the 
military even for a period of minutes in order to rejoin and 
reaccess, you will no longer be allowed to.
    But then you also have to look at the fact that now the 
Commander in Chief, the Vice President, the Secretary of 
Defense, and the Secretary of State have all said that I am not 
qualified to serve the United States Army despite my 15 years.
    If I am sitting on a board looking at evaluations for 
promotion, for schooling opportunities, or to invest additional 
resources into a transgender soldier, am I going to do that 
knowing that the chain of command at the highest levels had 
said this person shouldn't be in the military? If I know that 
the President of the United States is making a concerted effort 
to kick this member out, am I going to continue to invest my 
limited time, energy, and resources in allowing this soldier to 
continue to serve or am I going to let their careers languish 
as I focus on those who I know will be around tomorrow, due to 
no fault of their own, due to no limitations that they possess 
but through the choices of the President of the United States.
    I think it is also important to look at how this is going 
to affect the broader population. Whether deserved or not there 
is a hero culture that has arisen in the military over the last 
decade; all of us get thanked for our service and called heroes 
almost every day that we go out amongst the public.
    Officers and noncommissioned officers in the military are 
regularly rated as some of the most respected professions in 
the United States, so now if transgender people can no longer 
join the military, if they can't be awarded Meritorious Service 
Medals, Purple Hearts, if they can't deploy around the world, 
if they are told they are not good enough to serve the United 
States military, then now the entire United States sees trans 
people as somehow less.
    I think it is unfortunate that we are not able to appear in 
uniform today so that you can see us testifying with our rank 
and our accolades and speaking from a position of authority in 
the uniforms that we wear every day. I think it is unfortunate 
that we are here in civilian clothes testifying on our own, 
while the Department of Defense speaking on authority to kick 
out 15,000 transgender service members, is appearing in those 
uniforms.
    As the executive officer of the Iranian Division I look 
every day at the threats coming not only from Iran, Russia, 
North Korea, ISIS [Islamic State of Iraq and Syria], and other 
non-state actors, China, the numerous threats we face around 
the world and I know that the Army missed its recruiting goal 
by 11,000 soldiers across the Reserves, Active, and National 
Guard last year alone. The Marines, the Navy, and the Air Force 
barely met their recruiting goals.
    I am not sure that this is the time, as we face potential 
adversaries across the world, that we should be limiting our 
talent pool to a significant portion of the population who 
serves at twice the rate as their counterparts.
    Thank you for your time this afternoon and I look forward 
to your questions.
    [The prepared statement of Captain Peace can be found in 
the Appendix on page 71.]
    Ms. Speier. Thank you, Captain.
    Staff Sergeant King.

      STATEMENT OF STAFF SERGEANT PATRICIA KING, U.S. ARMY

    Sergeant King. Chairwoman Speier, Ranking Member Kelly, and 
members of the committee, thank you for being here today. My 
name is Staff Sergeant Patricia King. I have served in the Army 
for 19 years, deployed to Afghanistan three times, the first 
time in 2001 as part of the initial invasion force while 
participating in Operations Anaconda, Harpoon, and Glock. Over 
these combat deployments I have earned the Combat Infantry 
Badge, a device that is highly esteemed within the Army, for 
actions taken in the Shah-i-Kot Valley, and the Bronze Star 
during my third deployment for completing 12 months in 
deployment as a platoon sergeant with no incidents or loss of 
life. In that time, I led or planned over 400 missions outside 
the wire as the PSD [personal security detachment] platoon 
sergeant for the RC [Regional Command] South Region.
    I began my gender transition in 2015 and came out to my 
leaders that March. Since transition, I have served as a squad 
leader, a platoon sergeant, a division plans NCO 
[noncommissioned officer], and an operations NCO. In June of 
2016 I took control of a Stryker squad at Fort Lewis, 
Washington. When I first arrived to my platoon, there was no 
issue of me being transgender; rather, the fact that I was a 
female was more noticeable. In 2016, I was one of only two 
women in all of the United States Army infantry. My building, 
50 years old and still having asbestos removed at the time, had 
been built without women's restrooms, much to the chagrin of 
any spouse that might have visited their soldier during the 
workday.
    Being the creative thinkers that we are, we quickly made 
flip signs that had a blue male on one side and a pink female 
on the other. Since I was the ``only,'' the onus was on me to 
flip the sign when I needed to use the restroom. That pink 
female sign kind of represented my first few weeks there--
wherever I went, I was the pink sign in the room. When I would 
come in, there would be a hush that fell over the room for fear 
of saying the wrong thing. However, it didn't take long before 
my peers saw past my gender and the only thing that mattered 
was that I could do my job. I have been an infantryman for over 
15 years, I was one of them, I just happened to be a girl.
    From the get-go, none of that mattered to the soldiers in 
my squad. Most of them were 21 years old or younger. People in 
Generation Z simply aren't worried about trans very much. Much 
like their iPhones or Facebook, they grew up with trans people 
in their lives, they watch I Am Jazz, their generation has 
trans prom queens from Missouri, Florida, and Wisconsin, just 
to name a few. Laverne Cox is a household name for Generation Z 
much like we grew up with Laverne and Shirley.
    My squad quickly gave me the nickname Squad Mom. For us 
this was a term of endearment; there had never been a squad mom 
in the infantry before this. I was given an old Stryker, it 
happened to be one of the oldest in the Army and one of the 
worst maintained in our battalion when I received it, and a 
hodgepodge squad of soldiers, each with different backgrounds 
from around the world and around the country. But we quickly 
became a team and I let them know that they were my soldiers 
and as my mother always says, I only work with stars.
    Within a month we made our Stryker the best in battalion. 
We lived in the motor pool because the Stryker is how we get to 
work, and as it became the best in battalion, my squad became 
the most cohesive as we worked together. This is because each 
of us felt able to bring our whole self to work. There were no 
secrets, there was no false bravado, there was no hiding. My 
authenticity inspired that of my soldiers along with strong 
leadership and hard work and solid training. We built cohesion 
in a way that I have never seen in my 19 years of service.
    That is the value of inclusion, that is the value of having 
open trans service. From austere conditions in the field to 
deployed conditions in combat, to life in the barracks, I have 
witnessed firsthand that troops want strong leaders, leaders 
who care about them, leaders who can inspire them. They don't 
care if that soldier is trans; they don't care if the leader is 
gay or bi, white or black, male or female; and they don't care 
which bathroom or shower you use. The question that resounds in 
their mind are, can you do your job and accomplish your 
mission? Can you put rounds on target in the heat of battle? 
Can you look out for your troops' best interests? If a soldier-
leader can do those things, everything else really doesn't 
matter.
    Thank you for the opportunity to provide my perspective and 
I look forward to any questions you have.
    [The prepared statement of Sergeant King can be found in 
the Appendix on page 79.]
    Ms. Speier. Thank you, Staff Sergeant.
    Now we are going to hear from Hospital Corpsman Third Class 
Akira Wyatt.

     STATEMENT OF HOSPITAL CORPSMAN AKIRA WYATT, U.S. NAVY

    Corpsman Wyatt. Good afternoon Chairwoman Speier, Ranking 
Member Kelly, and members of the committee. My name is Akira 
Wyatt. I have served in the Navy for 8 years and I am a 
hospital corpsman third class, Fleet Marine Force, currently 
stationed at the USMC [United States Marine Corps] Camp 
Pendleton, California.
    I grew up in the Philippines and migrated to the U.S. at 
the age of 15. My father, a retired U.S. Marine, and my mother 
showed us that freedom fosters a person's chances for success 
and in bringing us here, gave us the greatest gift, a chance to 
achieve high goals and to contribute to society.
    The Navy and my Marines has now become my extended family. 
For the entirety of my service, neither my sexuality nor my 
gender identity has led to any disruption among my comrades and 
peers, in fact there has been nothing but positivity. Living 
our truth has made us all stronger, fully engaged, and more 
devoted to our duty.
    Though I hadn't yet been afforded the opportunity to 
transition, there was a moment in 2014 that rocked me to my 
core and at the same time reaffirmed my commitment to serve. In 
October 2014, PFC [Private First Class] Joseph Scott Pemberton 
committed a brutal murder of Jennifer Laude when he discovered 
she was a transgender woman. At that time my ship was docked in 
Subic Bay contributing to the joint training exercises with 
Philippine forces. I was briefed that PFC Pemberton was to be 
escorted to the ship for follow-up on care while in custody of 
the Philippines police. I had only heard the headline, Marine 
kills transgender Pinay, and I didn't think much of it.
    I was pretty naive until I saw him face-to-face. During his 
workup, I looked into his eyes and it shook me. As cliche as it 
may sound, I saw darkness. He felt cold and was without remorse 
for what he had done. In his presence, I thought it could have 
been me. I felt the painful moments before Jennifer's death. 
Regardless, I had a mission, a mission to do as this Marine's 
corpsman. It doesn't matter who I am, I am here to treat 
everyone with dignity, respect, and give them the medical care 
they need. My duty is to be my Marines' doc and that is what I 
will always do.
    Ironically, after the encounter I decided to transition, 
regardless of the senseless violence that could be directed at 
me for who I am. I told myself I will transition and I won't be 
afraid to, even if I might face the same circumstances as 
Jennifer did that night, even if it comes from the hands of my 
Marines.
    I medically and socially transitioned in 2015. That year I 
was--I was honored to be hand-selected as one of the two 
corpsmen to provide high-risk medical care at the 1st Marine 
Reconnaissance Course. During a field exercise, my 1st 
Reconnaissance staff sergeant said, ``I have never met anyone 
who has more balls than you, Wyatt. I will deploy to the sands 
with you and I would trust you with my life.'' I had enormous 
support from my superiors and peers. I was described in a 
fitness report as a sailor who is mission-oriented, focused, 
and is an inspiring leader, motivator, and is focused on team 
goals.
    My experiences with my Marine and Navy comrades show that 
unit cohesion and readiness aren't adversely impacted by having 
a transgender service member included. I formed incredibly 
tight bonds with the people I have worked with and I would 
follow them to the ends of the Earth to ensure that they get 
the critical battlefield care they need from their corpsman to 
continue to fight. And lastly, Semper Fi and Semper Fortis.
    [The prepared statement of Corpsman Wyatt can be found in 
the Appendix on page 86.]
    Ms. Speier. Thank you.
    Dr. Ehrenfeld.

          STATEMENT OF DR. JESSE M. EHRENFELD, MD, MPH

    Dr. Ehrenfeld. I think I am on. Very good.
    Good afternoon Chairwoman Speier and Ranking Member Kelly, 
members of the subcommittee. It is such an honor to be here 
today to testify. My name is Dr. Jesse Ehrenfeld. I am a 
physician testifying in my personal capacity based on my 
experience as a combat veteran and my background in military 
medicine and transgender health. I am also the chair-elect of 
the American Medical Association and the director of the LGBTQ 
Health Program at the Vanderbilt University School of Medicine 
in Nashville, Tennessee.
    The administration's military transgender policy 
disqualifies and discriminates against transgender people who 
are otherwise capable from serving. I have served and worked 
with transgender members both home and downrange. I have seen 
firsthand how incredibly courageous, committed, and capable 
these individuals are. I would like to state unequivocally for 
the record that there is no medically valid reason, including a 
diagnosis of gender dysphoria, to exclude transgender 
individuals from military service. This is the position of most 
major medical organizations, including the American Medical 
Association and the American Psychiatric Association, all of 
whom disagree with the Department of Defense's rationale for a 
transgender ban.
    There is a global medical consensus about the efficacy of 
transgender health care based on a wide variety and body of 
peer-reviewed medical research on the effectiveness of 
transgender medical care. Because of the clear evidence that 
gender transition is effective in treating gender dysphoria and 
can improve the well-being of transgender individuals, most 
third-party payers, including Medicare, provide coverage for 
these services.
    A major report noted by Chairwoman Speier earlier by 
several retired military Surgeons General rejected the 
Department of Defense's rationale for exclusion concluding that 
the Department of Defense's report is contradicted by ample 
evidence clearly demonstrating that transition-related care is 
effective, that transgender personnel diagnosed with gender 
dysphoria are deployable and medically fit.
    The Department of Defense's report's conclusions that 
transgender people aren't fit to serve contradicts the medical 
and scientific consensus. Transgender individuals are fully 
capable of serving. There is nothing about being transgender 
that diminishes a person's ability to serve in the military. I 
know this because I have served in the military with 
transgender people, including in combat.
    My own personal experience has been that our transgender 
service members are some of the most qualified, effective, 
individuals we have today serving our country.
    All five military service chiefs of staff testified last 
year that inclusive policy has caused no readiness issues, 
rather banning transgender troops harms readiness through 
forced dishonesty.
    In my opinion, the ban on transgender individuals actually 
harms unit cohesion and effectiveness. This ban discriminates 
based on who someone is rather than what they can do in their 
job; it will force transgender troops to be dishonest and hide 
their true selves and their gender identities.
    Policy decisions, which is your responsibility, impacting 
our service members should be based on science to ensure that 
the most effective and reliable force is out in the field. 
There is simply no medical reason, including a diagnosis of 
gender dysphoria, to exclude transgender people from military 
service.
    Thank you very much.
    [The prepared statement of Dr. Ehrenfeld can be found in 
the Appendix on page 93.]
    Ms. Speier. Thank you, Doctor.
    Again, thank you all for being here today and for sharing 
your stories with us. They are truly remarkable. And I would 
like to start by asking each of you, many of you have been 
deployed multiple times, you have indicated as such in your 
testimony. Can you tell us some of the highlights of your 
deployments?
    Commander Dremann. Yes, ma'am. One of my highlights was my 
second patrol on the USS Maine in qualifying as the second 
qualified female naval officer to qualify in submarines, that 
moment right there, there is literal blood, sweat, and tears in 
those dolphins that I proudly wear on my chest every day and 
those are the highlights. My transition is a backdrop of 
anything regarding my 11 deployments, whether it is trips to 
the Philippines, trips to Hong Kong, or just camaraderie of 
spades in Afghanistan--every Friday night for about 3 hours and 
a pack of cigarettes. So those are the highlights of my 
deployments, ma'am.
    Ms. Speier. Captain Stehlik.
    Captain Stehlik. Ma'am, I was sitting in my desk one day 
and I--my clinic NCOIC [noncommissioned officer in charge] came 
over and said, Captain Stehlik, we got a call from some guy out 
in western Afghanistan, and so I went to answer the phone and 
the first question I asked was, how do you even know who I am? 
It turns out it was a Ranger medic assigned to some special 
forces unit who had heard about me from his friends at a 
different special forces outpost that I had been invited to, to 
go take care of those folks. And he said, we heard great things 
about you and we want you to come take care of us.
    I was kind of floored, right, because I came to this 
deployment wondering how my transition would affect my 
relationships with soldiers and with command and to have 
somebody who didn't know me, didn't know my unit, had never met 
me, and ostensibly knew that I was trans because he found out 
about me from folks that I had worked with, found my phone 
number and got a hold of me to say, can you please come take 
care of us. That was a pretty remarkable thing to me and while 
I didn't end up going because it wasn't the most effective use 
of resources, there was another physical therapist going that 
way, it was pretty remarkable, and working with soldiers across 
that country in a deployed setting was absolutely amazing.
    Ms. Speier. Thank you.
    Captain Peace.
    Captain Peace. Ma'am, so my first deployment to Iraq, I 
actually wasn't called upon to deploy. I had been stationed at 
Fort Huachuca for a number of years and not deployed yet so I 
went to our operations and I said, How can I get to Iraq? And 
the only position that they had open at the time was, I was an 
electronics maintainer, and this was for instructor of the new 
intelligence system, the Distributed Common Ground Station for 
the Army.
    And so I went to a school, I learned the system, and I 
deployed working directly for the Multinational Forces Iraq G2 
[intelligence] out of the Perfume Palace, and spent many a 
night briefing both her and then updating slides for General 
Odierno at the time to ensure that they knew how the 
application of the systems was working out in the field with 
the program manager.
    The second deployment, I was stationed in the Arghandab 
River Valley which is just northwest of the city of Kandahar. 
We had an IED [improvised explosive device] cell that was 
emplacing Russian PMN mines--they're small pressure plated 
mines, they're antipersonnel--they had been modifying them with 
nails in order to get them to detonate with lower pressure, and 
we had seen them appearing for weeks and we eventually detained 
a few people. Myself and one of my soldiers, I was a 
lieutenant, stayed up for, it must have been 24 hours, working 
on translating some documents, going through some of the 
evidence that we had and some of the collection that we had 
requested and over the next 2 weeks myself and this specialist 
had gathered up enough intelligence to provide to the infantry 
soldiers to essentially dismantle an insurgent cell that was 
operating within northern Kandahar and the Arghandab River 
Valley, that had already taken life and limb from a number of 
our soldiers and after those few nights, we never saw any more 
in our area.
    And I think as an intelligence officer, having that kind of 
impact on those who are out there every day is one of the 
greatest feelings you can have.
    Ms. Speier. Thank you.
    Staff Sergeant King.
    Sergeant King. In 2002, during the operation that I had 
mentioned previously, Operation Anaconda, we were waiting for 
the opportunity to go out and to do our job. When you are an 
infantryman, it is kind of like being a concert pianist, you 
spend all of your time practicing--and hoping, in this case, 
that you never have to go to the concert--but you are ready and 
you are prepared. Finally, we found out that there had been 
some issue with some special forces and some Rangers and they 
needed help from conventional forces so we kitted up and we 
hopped into a Chinook.
    Operation Anaconda took place on the side of mountains and 
we couldn't be dropped off at the top because it wouldn't be 
safe, so the helicopters backed up to the side of the mountain, 
it is one of the most amazing things you have ever seen, we 
slid off the back of a helicopter and onto a mountain and then 
hope you don't fall down. We walked up and down mountains for a 
couple of days. I remember one of the more surreal moments was 
we had realized that the Air Force have been dropping some 
cluster bombs and as a result, as it got dark one night we had 
to stop where we were, we couldn't afford to move around, we 
didn't want to step on the wrong rock, if you will.
    So I grabbed a rock as a pillow and I made myself 
comfortable. We took turns pulling security and as I lay down 
that night, we had a Spectre gunship, which is a big C-130 
gunship, circling around, these low, left-hand turns, real 
slow, and you can hear the engines from it and that was our 
lullaby, this Spectre gunship, these Air Force pilots who were 
going to stay and they were going to circle overnight, all 
night, to keep us safe so that the next morning we would be 
able to get up and climb back up the mountain again, find more 
caves, find more of the bad guys to make sure that we would be 
able to go home and wouldn't have to worry about another 9/11.
    More recently, I was asked to be a squad leader in a PSD, a 
personal security detachment. It didn't take long before 
downsizing caused me to have to be a platoon sergeant and then 
halfway through my deployment, we had even more downsizing and 
I was asked to be the platoon leader; our platoon leader had to 
leave so I was the platoon leader and platoon sergeant for a 
34-soldier personal security detachment, leading 400 missions.
    And one of the craziest parts was that it was to protect 
folks like yourselves. When you are in the PSD for an RC it is 
so that the generals there and visiting leaders from within 
Congress and the DOD can come and be safe, so it was one of the 
biggest responsibilities that I found myself in because every 
one of those missions was to make sure that people like 
yourself came home safe but also make sure that my soldiers 
were. At the end of 400 missions, I have to attribute every bit 
of the success that we had after that year, to the vigilance of 
the soldiers that I had and the team that we were able to build 
over that year, to come home in 2002 after having dealt with 
the trauma that we had in Operation Anaconda and to compare it 
to 2014 where we were able to have so much success, it feels 
good to lead those soldiers and to be so successful.
    Ms. Speier. Thank you.
    Hospital Corpsman Wyatt.
    Corpsman Wyatt. First of all, Madam Chairman, the 
opportunity for me to serve with the 1st Marine Division, 
specifically 2/1 [2nd Battalion, 1st Marine Regiment] and 3/5 
[3rd Battalion, 5th Marine Regiment], those are the best 
highlights of all in my career, and to be able to be a line 
corpsman for my Marines and to be able to work with Naval 
Special Warfare Reconnaissance Course, and SOI [School of 
Infantry] Camp Pendleton.
    Ms. Speier. Thank you.
    Last question, Dr. Ehrenfeld, did I say that right? Thank 
you.
    Can you explain how an individual's transgender status 
impacts medical readiness and ability to meet standards?
    Dr. Ehrenfeld. Certainly. It is a wonderful question. 
Scholars, medical experts, all agree that transition-related 
care is reliable, safe, and effective, and unfortunately if you 
read the Department of Defense's Implementation Report there 
are a number of erroneous assertions and mischaracterizations 
about the scientific research on mental health and fitness of 
individuals with dysphoria.
    I didn't get a chance to answer my favorite part about 
deployment but I will tell you a story which is that when I was 
in Afghanistan toward 2014, serving as a division officer at 
the Role 3 in Kandahar, I got a call from an Air Force colonel 
who said, We have a service member I need you to take care of. 
I said, No problem, ma'am, what is the issue? And she said, 
Well, the issue is, he is transgender. And I said, Not a 
problem, we will take care of it. And the thing about that is I 
was surprised to find a transgender service member deployed 
with us, given the current policy at that time didn't allow for 
open service and yet here was this person.
    We took care of that individual. He did fine and was able 
to continue onward but what I will say from that experience is 
that it is consistent with the Department's own data that 40 
percent of service members diagnosed with gender dysphoria 
deployed to the Middle East, are able to serve and don't have 
any limitations because of their transgender identity.
    Ms. Speier. Thank you.
    Ranking Member Kelly.
    Mr. Kelly. Thank you, Chairman.
    And thank you to each of you witnesses for your testimony, 
again. I had the opportunity to meet with three of the 
panelists today, and during that meeting we discussed the 
importance of every service member being able to deploy and 
Captain Peace I don't know that I can say it any better than 
you said it, you want your folks to go downrange and when you 
gave your opening statement earlier, I don't know that I can 
say it any more succinct so thank you for that statement and I 
know that you meant it from our earlier discussions and I 
really appreciate that.
    I am hoping that each of you can explain what impact your 
transition had on your deployability and what your expectations 
are for other soldiers who are doing the same.
    And we'll start with you, Lieutenant Commander.
    Commander Dremann. Yes, sir. So my non-deployability time, 
during my transition, was at 7 weeks over the course of 3 years 
and that only includes three medical procedures, none of which 
happened during a training event, one of which happened in 
between patrols and before our pre-deployment training time on 
the submarine. That is less time than a shoulder surgery that 
is usually elective. They can go on deployment with--needing a 
shoulder surgery and get it when they come back.
    My transition has had zero impact on any deployments, any 
readiness issues. I have always been available for training, 
leading my teams, either as a dive officer which I wasn't very 
good at but they tried to make me good at and or various other 
training events; I have never missed a single one.
    Mr. Kelly. Captain Stehlik. And I am sorry about 
pronunciations, you know, I don't do those well.
    Captain Stehlik. You are just fine, sir.
    Sir, I can tell you that my transition has had absolutely 
no effects, not only in my ability to deploy, but also in my 
ability to get work done. When I had to go to therapy for 
instance as a matter of kind of routine course of care, I was 
able to rearrange my work schedule to still cover the same 
number of patients in a week. When I was required to go to an 
Army school, I managed to do the same thing and do that without 
having any effect on the timing of that school, and when it 
came time for me to deploy, there were no issues there, I did 
all the legwork beforehand to make sure that that wouldn't be a 
problem and actually sought out the deployment that I wouldn't 
necessarily have been part of.
    Mr. Kelly. Captain Peace.
    Captain Peace. Sir, throughout my transition which was 
really over a period of 3 years, and this is isn't something 
that I normally speak about but I think it is important, I had 
4 medical procedures and my total non-deployability time was 
right around 4\1/2\ months, 2 months of that over the course of 
those 3 years was taken on personal leave.
    It is important to remember that a single pregnancy from a 
female averages around 16 months of non-deployability and that 
can occur multiple times throughout 20 years or more of 
honorable service.
    I think what is important is that it is medical 
professionals and patients who decide what the most appropriate 
care and treatment is, but the commanders are brought in to 
ensure that the treatment occurs when it lines up with unit 
readiness and mission responsibilities. Things like medical 
treatment or surgical procedures can absolutely wait until 
returning from the field, returning from a deployment, occur 
over holiday leave. There are certainly a lot of accommodations 
that could be made to ensure that service members are not going 
and having surgery just before deployment or before a field 
training exercise to avoid it, but that it is ensured to line 
up with mission priorities just like we would do from LASIK 
[eye surgery] or anything else that may put a soldier down for 
an extended period of time.
    Sergeant King. Ranking Member Kelly, thank you for this 
question.
    My experience is something that highlights how well this 
can go when leadership, a service member, and a medical team 
work together. I have had 3 procedures that have been done 
through the military as part of my transition. The first one 
was the DOD's first ever vocal feminization surgery and the 
doctor that did the surgery said, In my opinion this is 
medically necessary, and in my opinion this is a procedure that 
I think that we should be able to perform. So he did the first 
procedure of that kind in the DOD.
    I went to my unit and I said, Hey, when is the right time 
to do this? My commander and I spoke and what we determined 
was, this procedure that was going to have me unable to speak 
for about 4 weeks and unable to go to work for about 2, the 
best time that I could do it that made sense for us was for me 
to do it right before Christmas time.
    As you know, sir, most of the time we have Christmas exodus 
so by doing this, I shortened the time that I was going to be 
down because I couldn't speak over Christmas leave, I just used 
a whiteboard to talk to my kids and then the end of January, I 
was ready to go the field with my unit when we deployed to the 
field.
    Mr. Kelly. You did very well.
    Sergeant King. Yes. Oh, I am sorry, I have just one more 
example. In the summertime that same year I had a facial 
feminization surgery. Again, the first one done in the DOD. One 
of the great things about this is that the doctor afterwards 
said that this procedure enabled him--he had never done it 
before and it enabled him to do other procedures after the fact 
because of the technique he learned.
    I did it in the summertime right before our summer block 
leave. I took 2 weeks of summer vacation and I came back and 
the week afterwards, I deployed to the field for 45 days.
    Mr. Kelly. And I apologize for interrupting you. You can't 
pause too quick around me, I am pretty, yes, pretty fast 
moving.
    HM3 [Hospital Corpsman, Third Class] Wyatt.
    Corpsman Wyatt. Thank you, sir. Basically, I was on light 
duty for 7 days basically, less than what you would get time 
off for an ankle sprain, and I had my orchiectomy and pretty 
much I expect the same for everyone, trans service members, 
that it is mission first and for both future and current 
service members.
    Mr. Kelly. Now, I think it is important, deployability, so 
I am going to ask you this question, in context and we talked 
about this with the 3 people who were in there earlier. You 
know, I still take my PT test in front of my troops because it 
is important that they see that I either pass or fail--I did a 
282 on my last APFT [Army Physical Fitness Test]--but it is 
important to do that in front of soldiers, it is important to 
be ready and so I want to ask you, do you agree or disagree--
because different medical things, whatever they are, it doesn't 
matter whether you are talking about a back and we talked about 
this earlier or a knee, they affect different people.
    If people cannot deploy for prolonged periods of time, do 
you agree or disagree that they should be separated from 
service if they can't deploy for a long period of time 
regardless of the reason?
    Commander Dremann. Sir, the current DOD standard is 12 
months and if they can't meet that standard then they 
absolutely should be looked at for separation.
    Captain Stehlik. Sir, I concur and I think that the 
important point here is that we look at all service members the 
same, that if you cannot meet the DOD standard of deployability 
within 12 months for any given medical condition, then you 
should be separated from service or at least looked at for the 
same. The point I think that is important is that we aren't 
trying to set a distinction that if you are transgender there 
is a different standard.
    Mr. Kelly. I agree.
    Captain Peace.
    Captain Peace. Sir, I absolutely agree that we should 
discharge those who are unable to complete the mission and 
deploy. The only caveat I would make to that is I would have 
concerns that in bad faith there would be some sort of non-
deployability stigma attached to being transgender--if you 
start hormones, you're not deployable for 12 months--that may 
not be medically necessary, it may not be grounded in any sort 
of science, but by proxy it wouldn't allow trans service 
members to stay in the military. So I would say as long as 
there is nothing that is applied to trans service members or 
trans health care that unnecessarily extends their non-
deployability, that I agree.
    Sergeant King. So you know, I am a Master Fitness Trainer, 
would you trust me to grade your push-ups?
    [Laughter.]
    Mr. Kelly. Absolutely. This new Army Combat Fitness Test, 
though, I am not so sure of because I am not sure that I can 
pull my knees up to my elbows, I am old.
    Sergeant King. As a Master Fitness Trainer, one of the 
things that we learned in the month of that class is the 
importance of having the opportunity to recover properly and 
what we have learned is that proper recovery techniques, proper 
PT techniques, mean that any soldier, any service member who is 
training properly, is going to be physically fit and have the 
opportunity to recover.
    Yes, anybody should be held to the same standards within 
their gender or as we go to a genderless standard and be able 
to pass and if you can't then absolutely, I have no need for 
you next to me in combat.
    Corpsman Wyatt. I do totally agree, sir. We do put a lot of 
our members who need higher echelon of care for certain 
injuries into, I am going to use military jargon, LIMDU 
[limited duty] and then basically be put on Med Board and then, 
depending on how that is, be either accessioned out or be put 
for another type of echelon care.
    Mr. Kelly. And thank each of you for your testimony here 
today and your service to this great nation.
    And with that I yield back, Chairwoman.
    Ms. Speier. Thank you. Mr. Gallego.
    Mr. Gallego. Thank you, Madam Chair. I think we have to 
uncover some deep truths, the fact that Kelly claims that there 
is a 282 PFT. I want to know, who is spotting you because that 
is a good friend.
    [Laughter.]
    Mr. Gallego. I would like to also take a moment to 
recognize someone that I actually served in Iraq with, that 
happened to be joined with me; Corporal John Bylone back there 
was actually with me in Iraq in 2005 is here, so.
    I am just going to give a quick statement. Thank you, 
Chairman Speier.
    I had the privilege and distinct honor of hosting Captain 
Stehlik and Lieutenant Commander Dremann in my office 
yesterday. I have read the biographies of other service members 
here today and they are impressive. Their selfless service to 
the nation is a model for us all. We should all be so lucky to 
be able to shake hands with these people who have shown such 
devotion to their country in the face of such animus.
    Chair Speier, transgender people have zero impediments to 
service. They should be treated like any other soldier, sailor, 
airman, or Marine because they are just that, regular soldiers, 
sailors, airmen, and Marines. These American heroes want to 
serve. They are able to serve and they are good at their jobs, 
let's let them do it.
    As someone who actually served in the combat arms of the 
Marine Corps as an infantryman, it would have been an honor to 
have served with many of you brave people and I would have 
entrusted my life to you and this country is lucky to have you 
and we should continue to make sure to have you. Thank you.
    And with that Ms. Chairman, I would like to cede the 
balance of my time to Ms. Trahan of Massachusetts.
    Mrs. Trahan. Thank you. I want to thank Chairwoman Speier 
for prioritizing this hearing. I certainly want to thank all of 
you for your incredible service, for sharing your stories, and 
you are qualified, you are good enough, and we are lucky to 
have you protecting our security.
    I know that it was nice to listen to some of the highlights 
of your service. It would be interesting just because we have 
all gone through parts of our career where you know, we face 
difficulties so I would love for you to share with us maybe 
some of your more difficult times in the military and in that 
moment, it would be nice to know, was it being transgender that 
held you back or was it just a difficult time in the military?
    Commander Dremann. Ma'am, thank you for the question. My 
most difficult time was my third patrol on the submarine. At 
the time I had been deployed for 7 years straight, and in the 
middle of my third patrol on the submarine, and I was tired. I 
was struggling personally, I was struggling professionally, we 
were in the middle of three different inspections over the 
course of 70 days. I had lost personnel on my team so I was the 
senior person within my food service division, I didn't have my 
senior guy that would normally take care of that a lot for me. 
It was a difficult time. It was also about the time that I 
decided that I needed to move forward with my transition.
    Being transgender wasn't the reason that I was struggling 
but it definitely was an additive to the stress of being in the 
midst of three inspections, being underway and deployed again 
for a long time, all of which I volunteered for. There was 
never a point in time where I didn't volunteer for any of my 
deployments, but you don't turn down those things, so that was 
the most difficult time but leading that, my transition had no 
impact in my ability to continue to do the job because we still 
came home with all our supplies and everybody got fed and we 
weren't on peanut butter and jelly as we pulled in so we did 
well. But that was definitely my most difficult time and 
transition made it a lot easier going forward and reinvigorated 
my ability to continue to serve.
    Mrs. Trahan. Thanks.
    Captain Stehlik. Ma'am, typically the Army just tells you 
where to go and what to do, right, but when I found out that 
this brigade was going to deploy to Afghanistan without a 
physical therapist, I had a decision to make and because of my 
life and the current political environment, I felt like it was 
important to go actually talk to the unit leadership and ask 
them if they wanted me on the team because things were a little 
bit different.
    That was probably one of the most challenging moments of my 
life to walk down to this brigade command office and say, 
``Hey, here I am. I would love to go to Afghanistan with you to 
take care of your people but there are some things about me 
that are different and you have to ask for me; the Army didn't 
just send me to you and they won't send me to you. I am just up 
the street and I am willing to switch places with your current 
therapist so that I can go but you have to say yes, you have to 
want me,'' and then after 10 years of the Army just telling me 
where to go, choosing to make that walk was difficult. And at 
the end of the day, the only question that they had was, Wait, 
you want to come to Afghanistan with us?
    Mrs. Trahan. Yes. Thank you.
    Captain Peace. And I would say that the most difficult 
times in the military for me have been when there was a lack of 
policy. Once the Carter policy was in place all the issues went 
away until they started getting litigated again.
    The two lowest points of my career were both when there was 
no clear policy in place. The first one was when I was with the 
7th Infantry Division as their intelligence planner. The chief 
of staff, a full-bird colonel, called me into his office and 
said, because he didn't know what to do with me and he wasn't 
sure what the right answer was, he didn't want me in the male 
bathroom and he didn't want me in the female bathroom so he 
instructed me to walk a block or two down the road where there 
was construction and I was allowed to use port-a-potties out 
there for the construction workers for a period of months while 
as a division intelligence officer, I felt like that was not 
taking care of your soldiers.
    The second was when I was on leave. I was actually enjoying 
a little bit of a vacation, when I woke up to the tweets from 
the President of the United States of America and I think it 
was at that moment that I for the first time really questioned, 
``Why am I still waking up and putting on this uniform when 
time and time again I am told that I am not able to serve? Why 
should I wait around to deploy and risk my life again when the 
people that I am serving do not even want me here?'' Ma'am.
    Mrs. Trahan. Thank you.
    Sergeant King. Ma'am, the most challenging day in my Army 
career goes back to that same time during Operation Anaconda, 
carrying a soldier, looking for a helicopter that could land on 
the side of a mountain and hoping that we got that soldier 
there in time. It wasn't a soldier from my unit, it was a 
soldier from a sister unit that had been serving with us, 
getting that soldier there and wondering if we were going to 
have enough time and finding out that ultimately, we didn't 
have enough time.
    If I had the opportunity to give back the CIB [Combat 
Infantry Badge] that I earned during that deployment to have 
that soldier back, I would every single time.
    Mrs. Trahan. Thank you.
    Corpsman Wyatt. Ma'am, for me that would be around the 
time, like Captain Peace said, basically when the policy wasn't 
out and there was a lot of uncertainty. I was never judged by 
my job performance. I was basically in a stand-still, I almost 
lost faith in my superiors due to the fact that they didn't 
know what to do with me, they didn't know what was happening, 
didn't know what to follow, there were no orders up top and 
regardless of the fact, I still did what I needed to do.
    I came into the military to be a medical corpsman, to be a 
hospital corpsman, regardless of the fact, yes.
    Mrs. Trahan. Thank you.
    You know, we are reminded, while we sit here today and you 
all reminded us of this in your opening statements that a key 
component to building trust and unit cohesion is to be 
authentic, which you all bring that to your jobs each day and 
you brought it here and I really appreciate all of your 
testimony and your focus on performance and standards and you 
know, the treatment that everybody should have to, you know, 
rise to is really admirable so we are going to set the 
conditions for you all to thrive. I really thank you for being 
here today.
    And I yield back.
    Ms. Speier. Thank you.
    Mr. Cisneros.
    Mr. Cisneros. Thank you, Madam Chairwoman.
    Thank you all for being here today and thank you for 
serving your country. You know, this is a voluntary service, 
nobody has to do it; you are doing it because you want to do 
it.
    I had the pleasure of sitting with HM3 Wyatt yesterday in 
my office and kind of talking about her career.
    I am sorry that I missed you, Lieutenant Commander Dremann, 
it would have been an honor to meet you in person and hopefully 
we can chat sometime later. But, you know, being a fellow 
supply officer, I know what you are going through and I know 
how--the distinguished award, the Batchelder Award, the good 
work that you have to do in order to win that so 
congratulations on that.
    And congratulations to all of you on your careers.
    I just want to go over, Lieutenant Commander, go over 
something that you kind of said, right, when you decided to 
transition you felt it made you a better leader, a better 
officer.
    Could you just all kind of talk about that for me, about 
how the transition has basically helped you not only as an 
individual but how it has helped your leadership and your 
career?
    Commander Dremann. Yes, sir. Thank you for that question. 
The reason that my transition made me a better leader, a better 
officer is that I was no longer compartmentalizing parts of my 
life. I was no longer Blake at home and something else at work 
and with bringing your whole self to work, as we require as 
someone in the military because the military is not just a job, 
it is your life and compartmentalizing that part of your life 
leaves a piece of you not able to contribute to the mission, 
and our mission requires all of you.
    And once I started my transition, I--having one less thing 
to worry about, I was able to be better at speaking up during 
meetings, I was a better leader on the watch floor, in the 
control room on the submarine, a better trainer with my junior 
officers as I was training the new junior officers that showed 
up to the submarine--yes, they let the ``chop'' [supply 
officer] train the junior nukes how to operate a periscope--so 
those are the things that you suddenly have the confidence to 
do because all of you is there and there is nothing that I can 
say that would make me want to go back to being a person who 
would sit in the back of the room and wait to be called on 
rather than stepping up and being a leader in the room and I 
think I can point to my transition starting that. The time 
period of my award for the Batchelder was November 2013 to 
November 2014 which coincides with starting my transition.
    Captain Stehlik. Sir, you asked how my transition has 
benefited my career and I think actually that question remains 
to be seen.
    Mr. Cisneros. Yes.
    Captain Stehlik. I am here today defending my ability, or 
hopefully my privilege, to remain in uniform and take care of 
soldiers, so it is possible that my decision to transition has 
dramatically affected my career for the negative in that I 
won't be allowed to stay in the military or that I won't be 
allowed further professional opportunities. So I think that is 
really how it has affected my career is that we don't know 
yet----
    Mr. Cisneros. Yes.
    Captain Stehlik [continuing]. That is why we are here.
    I think on the other hand my transition has made me a much 
better physical therapist and it has made me a much better 
officer. One of my friends once told me, she wrote a book and 
put this quote in it, that people crave authenticity. We 
respond to those people who you can tell are being genuine, and 
I can tell you without question that that has been the 
overwhelming experience of my transition, is that friends, 
family, strangers, patients, all come up to me and spill all of 
the things in their life because somehow me being me, me saying 
to the world, ``Here's who I am, take me as I am,'' allows them 
to do the same, allows them the freedom to say, Things aren't 
okay in my life, but you look like you are doing okay and you 
are willing to tell the truth so I am going to tell the truth 
too. I think that makes for a healthier population of soldiers, 
sailors, airmen, and Marines; it makes for a healthier command 
climate; it makes commanders make smarter decisions because 
they have better answers from soldiers. So to me there is no 
question that it has made me a better officer. I think the 
question is whether or not it--how it has affected my career.
    Ms. Speier. The gentleman's time has expired.
    Mrs. Davis.
    Mrs. Davis. Thank you very much, Madam Chair.
    And welcome to all of you. I am so glad you are here.
    I had the great honor actually to chair this subcommittee 
throughout Don't Ask, Don't Tell and so having the early 
hearings was just so important and I think in our communities 
what we saw was the more people who would come out, basically, 
and increase the familiarity that people had, that you know, no 
big deal in many ways which is the way that the military 
receives this out in the field--of course there were some 
people who had more difficulty with it but we can't deny that, 
but I think generally speaking the transition was much smoother 
than people thought.
    And so I just want to thank you because this is important 
and in many ways you have been on the most courageous journey 
that most people ever take and it is just good to have you here 
and talking about this.
    What I would like to do is--I was going to ask you some of 
the questions about the lowest day and the best day that you 
have had in terms of general experience, and you have had a 
chance to answer that mainly because we want to get to know 
you, and what is it that drives you to be the very best in your 
military career and also as an individual and you have 
expressed that very well.
    I am just going to turn to Dr. Ehrenfeld for a second 
because I think there is some confusion about the policies and 
I am wondering how, and maybe all of you can chime in a little 
bit, how do you explain to someone who is really questioning 
what this ban means, you know, you are in the service, you have 
transitioned, and the fact that you cannot obtain medical help 
if you join the service, as I understand it, if you join the 
service and you need to go through that transition. I mean, 
there are some absolute differences in what is being proposed. 
Can you very quickly just clarify so that I don't leave with an 
impression that could be incorrect?
    Dr. Ehrenfeld. I appreciate the opportunity, ma'am. Thank 
you so much. The 2016 policy allows transgender people to 
openly serve and get the same medical care as everyone else 
which is something that is deeply important to me as a 
physician. The 2018 policy does just the opposite.
    Under the 2016 policy, individuals can transition gender 
before or during service, if medically necessary, and continue 
to serve. Under the 2018 policy they simply cannot.
    One thing that is really important is that I think a 
hallmark and a really important part of the 2016 policy is that 
it treats everyone the same and what you have heard from the 
panel today is that there is no notion that anyone believes 
that it is appropriate to reduce the standards for what people 
should be able to do and I would actually argue that the 
Department's overall approach has been relatively conservative 
in the first 2 years of understanding what open service looks 
like.
    One quick example of that is that beginning a course of 
hormone therapy should not from a medical standpoint require 
any extended limitations or inability to deploy. The services 
have been using a 1-year standard. Now the author of the 
endocrine guidelines which the military has been using actually 
has stated that a 90-day window is probably sufficient.
    Mrs. Davis. Yes. okay. Thank you very much.
    What do you think people are most worried about?
    Captain Peace. You know, the three big concerns I have 
always heard are cost, readiness, and morale on units. We have 
addressed a few of those. A report today came out about cost, 
whereas over the last 3 years the entire cost of transgender 
health care in the military has been around $8 million while 
over the same time period we spent over a billion dollars on 
the military band and we spent over $240 million on erectile 
dysfunction medications. So I think that all of those things, 
the readiness, the cost, the morale issues that we have heard 
from Don't Ask, Don't Tell all the way to the trans ban, I feel 
as if all of those are red herrings for a policy that is based 
in bigotry, that is based in denying a group that people are 
uncomfortable with at the policy level, at the administrative 
level of government but not within the military.
    It is not a concern in the military. It is not something 
that you hear about. It is only through the offices here in DC 
that we hear any of these issues and my only conclusion from 
that is that they aren't based on people who have served but 
they're based on people who have not served in the military and 
the natural biases that they hold against people they have 
never met.
    Mrs. Davis. Yes. Right. I think that is a good point, the 
familiarity, that not their neighbors, not the people that they 
invite over for dinner, and that really is an issue that we 
face in society.
    Thank you very much all of you for being here. Appreciate 
it.
    Ms. Speier. Thank you.
    Ms. Escobar.
    Ms. Escobar. Madam Chair, thank you so much for bringing 
this hearing up and allowing us to participate.
    And to everyone on the panel, thank you so much for being 
here to share your expertise but especially to those of you in 
service, thank you for your incredible dedication. Thank you 
for everything that you have done for this country even in the 
face of what your country has at times done to you.
    We are going to have a little bit of an interactive 
session. If you could--so a part of the concern, Captain Peace 
you mentioned readiness, that one of the concerns is readiness 
and that the accusation about transgender service members is 
somehow that they are unfit for deployment. If you could by a 
show of hands, who on the panel has deployed overseas? Okay.
    And again, show of hands, who is currently eligible for 
worldwide deployment? Okay.
    And then one last interactive question, very plainly put, 
who here, please raise your hand, believes that this is 
government-sanctioned discrimination? Thank you.
    This is a question for Captain Peace. Captain Peace, you 
began in enlisted service and you are now an intelligence 
officer, is that correct?
    Captain Peace. Yes, ma'am.
    Ms. Escobar. Okay. Can you tell us in detail about the 
promotion process required for you to get that role?
    Captain Peace. So in order to become an officer as an 
enlisted soldier, there is a few ways to do it: you can leave 
service, go through an ROTC [Reserve Officers' Training Corps] 
academy at one of the schools and commission through there; you 
can go Green to Gold which is a process where you stay in the 
military, go to college and commission; and then there is also 
the Officer Candidate School which is the route that I took. It 
requires a selection by a general officer, after reviewing your 
panel--or your packet and then also sitting through a panel.
    Once approved from that you go to Fort Benning for a 12-
week intensive course, they test everything, there is multiple 
physical test, there is multiple tests of military history, of 
doctrine, of tactics, techniques, troop-leading procedures, a 
few weeks in the field, land navigation. It is a course to 
ensure that we only let those who are qualified to lead 
soldiers into combat that can graduate from.
    The concern is that on the very last day of Officer 
Candidate School, you don't simply commission to become an 
officer. You actually sign discharge paperwork as an enlisted 
soldier, and then immediately following that you sign paperwork 
commissioning as an officer in the United States Army.
    That process, that 1-minute window between receiving your 
discharge paperwork and signing your commission, means that you 
require accessions and so if this policy goes into effect, no 
one who is trans will be able to take the same route that I did 
or any other route to go from enlisted service member to an 
officer in the Army.
    Ms. Escobar. And aside from what you just described, in 
terms of the training, in terms of the rigors of what you have 
achieved, did your gender identity at any point impair your 
ability to achieve that?
    Captain Peace. Absolutely not in any way have I ever been 
held back because of my gender identity or my transgender 
status.
    Ms. Escobar. Thank you. I could easily ask each and every 
one of you a very similar question. I only get 5 minutes. I 
believe that the bottom line would be the same for each and 
every one of you, that the rigors of what you have had to go 
through have proven that you deserve what you have achieved; it 
is just that the government is trying to prevent you from 
achieving all that you can.
    Thank you very much again for your service. I yield.
    Ms. Speier. Ms. Haaland.
    Ms. Haaland. Thank you, Chairwoman. And I thank you also 
for having this hearing.
    I am happy to have all of you here. I just first wanted to 
say to all of you that I am so grateful for your service to our 
country.
    My dad was a 30-year career Marine and my mom was a Navy 
veteran. I traveled a lot as a kid because of my dad's career 
and at one point you know, it was probably 10 years ago or 
something I asked my mom, was she disappointed that none of 
us--there is four of us, was she disappointed that none of us 
joined the service, and she said, no, you served your time.
    So I understand that as a country all of us should value 
our veterans and I just want you to know that regardless of 
what the President says, there are millions of Americans who 
appreciate the service that you have given to our country and I 
just want you to know that, that we do appreciate it.
    It is not everybody will make a decision to say, I would 
die for my country because a lot of people wouldn't and I 
believe if there is one person that isn't fit to serve, we all 
know who that is right now, because that person devalues things 
that people want to do to make our country better and to move 
it forward. And although I can't apologize for that person, I 
can tell you that I will do everything in my power to make sure 
that we can bring back some civility and respect to the people 
who are serving our country so I just wanted you to know that.
    My daughter is gay and that doesn't make me more 
understanding; in fact I didn't even know she was gay and I 
found out from someone else and I asked her, why didn't you 
tell me you were gay? And she said, do you think teenagers sit 
their parents down and tell them they are heterosexual? And I 
said, probably not. And she said, then why should I have to 
tell you I am gay?
    And I thought, point well taken, right, we should just--
everybody should just be who they are and everyone should 
accept them for that. And I want you to know that I accept you 
for who you are and I just feel like right now if you try to be 
someone you are not you wouldn't be as effective and you have 
pretty much all said that in your testimony and I appreciate 
you for being so honest. And so I guess I mean, I feel like 
there is so much discrimination in this country and like those 
of us who care deeply about that, that is why we run for 
Congress, it is one of the reasons why so many of us ran for 
Congress because we want to make things right for people, for 
everybody: for trans people; for immigrants; for people who 
have been marginalized, and I come from a culture of people who 
are marginalized.
    So I apologize for going on but I just wanted you to know 
that there is so many people who just appreciate your service 
and I thank you all deeply for that.
    I guess I could have one question and that is I mean, you 
all kind of expressed your--like as a low point in your careers 
is what you know, is what this last time--this last time when 
the President tweeted out his tirades of discrimination towards 
trans service members and how was like how were your peers, how 
were the people you served with. I mean, how did they come out 
to support you, like what did you experience from other service 
members whether they were trans or not? I am just curious what 
the morale is out there with the people that you are serving 
with and we can start with, I don't have much time left but 
Lieutenant Commander----
    Commander Dremann. Yes, ma'am.
    Ms. Haaland. You can answer the question and then I might 
have to yield.
    Commander Dremann. So in my personal capacity as I stated 
earlier, I am the president of an organization that supports 
transgender service members and I work in a mostly civilian 
organization with military bosses and some military people and 
the day that that happened, they knew that my leadership with 
my service members was needed for that day and they sent me 
home to make sure that I was able to corral my service members, 
make sure that they were okay, and take care of our transgender 
service members to ensure that the information, that we calm 
them down and sent them right back to work because that was 
what we were called to do that day.
    Ms. Speier. Thank you, Lieutenant Commander.
    Finally, Mr. Brown.
    Mr. Brown. Well, first of all thank you, Madam Chair, for 
allowing me to participate in today's hearing.
    I want to begin by thanking Lieutenant Commander Dremann 
for inviting me last year to be a speaker at the 7th Annual 
LGBT Pride Day at the Pentagon and it meant a lot to me.
    I want to thank each and every one of you for your service 
and for your willingness to testify before this committee.
    You know, when President Truman signed the executive order 
desegregating the Armed Forces, he said, whereas it is 
essential that there be maintained in the Armed Services of the 
United States the highest standards of democracy, with equality 
of treatment and opportunity for all those who serve in our 
country's defense. And then 60 years later in 2008, Secretary 
of Defense Robert Gates while he was speaking at the 
anniversary of the signing of that executive order he said, no 
aspect of black Americans' quest for justice and equality under 
the law has been nobler than what has been called, ``the fight 
for the right to fight.''
    You are now engaged, and we are with you, in a very noble 
fight for the right for all Americans to fight, so I thank you 
very much.
    Look, I spent 30 years in uniform, 5 on Active Duty, 
another 25 in the Reserves, a year in Iraq. I served with the 
most patriotic men and women from all four corners of this 
country: straight and gay; black and white; all faiths; all 
races; all four corners of this country. We knew each other and 
as you testified today and shared your experience, all we cared 
about is whether you could do the job, that is all we care 
about and it is my experience in the military, just like yours, 
that leads me to confidently conclude that there should be 
absolutely no ban, no differentiation, no discrimination 
against transgender persons who want to serve in the United 
States military.
    And again, I want to thank the Chair for allowing me to 
participate.
    Here is my question. Based on your experience, particularly 
as you talked about your peers and the reactions from your 
peers, and also considering that I think all of you served 
before 2016 as well as after 2016, given that all five military 
chiefs including the next Chairman of the Joint Chiefs says 
that transgender service members have not had any effect on 
readiness, and that 57 retired flag officers say that if you 
ban transgender service you will actually degrade military 
readiness, can you describe what the impact would be on a 
policy as proposed, this 2018 policy proposed, where you would 
have transgender service members who are serving but are 
prohibited from transitioning, what kind of impact does that 
have on morale, and readiness, and unit cohesion?
    Captain Stehlik. Sir, I think that there are a couple 
things to make clear here and one is that the two policies are 
very different, right? So currently transgender people can join 
the military assuming they meet all other standards. Soldiers, 
and this comes to the point that you are making, soldiers now 
are allowed to seek care no matter what, whether it is trans 
related or not.
    If the policy changes, soldiers will no longer be allowed 
to seek care; soldiers, sailors, airmen, and Marines will no 
longer be able to seek care no matter what because if you go to 
mental health and say, I am trans, and you get a diagnosis of 
gender dysphoria, regardless of your job performance under the 
new policy you are eligible to be terminated. So we are asking 
service members to start hiding what is actually going on.
    When you look at what Secretary Carter said when we changed 
the policy, he said, we've put commanders in a bad place 
because they are trying to retain talent and do the right thing 
by their soldiers but the regulations aren't clear. By moving 
to this new policy, not only are you going to put commanders 
back in the same position they were, you are now going to put 
medical providers in the same position where they have to 
figure out how do I treat these folks and maybe not actually 
give them a diagnosis so that they can continue to serve 
because they are doing a good job.
    I think it is risky and not helpful. And I think it makes 
everybody have to make much more difficult decisions that 
aren't clear-cut and aren't well regulated which is exactly 
what the policy that Secretary Carter announced 2 years ago was 
trying to prevent and to change.
    Ms. Speier. The gentleman's time has expired.
    Let me just conclude this panel by saying that I have been 
in the House of Representatives now for about 11 years almost 
and I can't think of a panel of witnesses that have come before 
this House that I have participated in, that have showed more 
talent, courage, willingness to put forth a position that is 
truly appropriate and do so with the kind of clarity and 
conviction that all of you have done.
    You are hopefully going to be part of an education that 
will allow us to do the right thing. You have shown 
extraordinary courage. I hope that this House of 
Representatives shows the same kind of courage to make sure 
that this bogus policy promoted by the Commander in Chief and 
only postponed because of a court case, that we show that this 
bogus policy has no business in the policies of the military or 
the United States of America. So thank you each and every one 
of you for the extraordinary service that you provide and for 
your presentations here today.
    Thank you.
    And we are now going to take a brief couple of minutes 
recess and transfer to the second panel.
    Thank you all very much.
    [Recess.]
    Ms. Speier. I would like to welcome our second witness 
panel.
    I understand that Mr. Stewart will be making one opening 
statement for both witnesses. We respectfully ask that you 
summarize your testimony in 5 minutes or less. Your written 
comments and statements will be made part of the hearing 
record.
    Our second panel consists of the Honorable James Stewart, 
performing the duties of the Under Secretary of Defense for 
Personnel and Readiness at the Department of Defense, and Vice 
Admiral Raquel Bono, the Director of Defense Health Agency.
    With that Mr. Stewart, you can begin.

  STATEMENT OF JAMES STEWART, PERFORMING DUTIES OF THE UNDER 
SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS, DEPARTMENT OF 
  DEFENSE; ACCOMPANIED BY VADM RAQUEL C. BONO, USN, DIRECTOR, 
                     DEFENSE HEALTH AGENCY

    Mr. Stewart. Chairman Speier, Ranking Member Kelly, and 
members of the subcommittee. I appreciate the opportunity to 
discuss the important issue of military service by transgender 
individuals.
    Prior to being confirmed as the Assistant Secretary of 
Defense for Manpower and Reserve Affairs, I served for 37 years 
in the Active and Reserve Components of the United States Air 
Force and retired as a major general. As both a service member 
and a senior civilian official of the Department of Defense, I 
have greatly appreciated the work of this committee in support 
of the men and women of the United States military.
    Until recently, Department policy and practice precluded 
the accession and retention of transgender individuals; however 
in 2016, the Department announced significant changes which 
made clear that no one could be denied accession or 
involuntarily discharged from service solely based on gender 
identity. The 2016 policy allowed service by transgender 
individuals without a history of gender dysphoria or 
transition, if they could meet the standards associated with 
their biological sex to include: medical fitness; physical 
fitness; body fat; uniform and grooming; berthing and bathroom 
standards. The 2016 policy also allowed those with a history of 
gender dysphoria or transition to join the military in their 
preferred gender so long as they were stable for at least 18 
months. Those who were diagnosed while in the military could 
obtain medical treatment to transition genders. Once 
transitioned they were granted a categorical accommodation to 
meet the standards of their preferred gender rather than their 
biological sex.
    In 2017, in consultation with service secretaries and the 
Chiefs of Staff, then-Secretary Mattis delayed implementation 
of the 2016 accession standards to conduct a review of his own. 
It is a common misconception that Secretary Mattis directed 
this review only after the President publicly announced his 
desire to return to the pre-2016 policy; that is incorrect. 
Secretary Mattis ordered a review of this issue nearly a month 
before the public statement from the President.
    Subsequently in 2018 after an extensive review by senior 
military and civilian leaders, Secretary Mattis adopted a new 
policy that will do two things: first, it will maintain the 
2016 policy of allowing transgender individuals without a 
history of gender dysphoria or transition to serve if they 
adhere to all accession, retention, medical standards 
associated with their biological sex; second, it will end the 
policy of categorically providing a special accommodation for 
an individual with a diagnosis or history of gender dysphoria 
that requires a transition.
    Those service members who relied on the 2016 policy for 
accession or to pursue a gender transition in service will be 
grandfathered or exempt under the previous policy; the 2018 
policy will not apply to them.
    The fundamental difference between the 2016 and 2018 
policies is that the new policy ends the practice of providing 
special accommodations for individuals with a history or 
diagnosis of gender dysphoria and the transition-related 
treatment. Rather, it approaches the condition in the same 
manner as the Department manages any serious medical condition 
for both accession and retention purposes ensuring equal 
application of military standards to all persons regardless of 
gender identity.
    It does not assume that gender transition is a panacea to 
the condition and that all treatment options are compatible 
with military service. This is due to the fact that persons 
with gender dysphoria suffer from disproportionately higher 
rates of mental health conditions such as anxiety and 
depression, substance abuse disorders, and suicidal incidents. 
Further as the Department has learned, transition care is 
highly individualistic and require sustained medical monitoring 
and intervention which can have a direct impact on individual 
readiness and deployability.
    As the Department's report explained at length, gender 
transition can lead to substantial periods of deployment 
unavailability, depending on the scope of the treatment. As 
such, aligning accession and retention standards for gender 
dysphoria and related treatment to a similarly situated medical 
condition ensures consistency with other standards that present 
a potential impact to deployability and force readiness. For 
example, lessons learned from the implementation of 2016 
indicate that 424 treatment plans reviewed, 91.5 percent 
included hormone treatments which, in the case of the Army and 
Navy, is deployment-limiting for the first 12 months of 
treatment.
    Before I conclude I would like to address a common 
criticism levied against the proposed policy. Many have 
described the policy as a ban on transgender individuals. This 
characterization is incorrect. To the contrary, the 2018 
policy, like the 2016 policy, prohibits a denial of accession 
or involuntary separation solely on the basis of gender 
identity so long as transgender persons, even those with a 
history of gender dysphoria, are willing and able to adhere to 
the standards associated with their biological sex and have not 
had disqualifying medical treatments, they may serve, and we 
definitely welcome them.
    It is important to remember that not all persons who 
identify as transgender have been diagnosed with or have a 
history of gender dysphoria. According to the American 
Psychiatric Association, not all transgender people suffer from 
gender dysphoria and that distinction is important to keep in 
mind; the Department's data appears to bear this out. For 
example, 8,900 Active Duty service members identify as 
transgender according to a 2016 DOD survey, yet as of the 1st 
of February 2018, only 937 had been diagnosed with gender 
dysphoria.
    In proposing a new policy, the Department is aware that 
some former officials and military leaders along with advocacy 
groups and certain medical communities of practice have reached 
a different judgment on this issue, but as we will discuss 
today the realities associated with a medical condition called 
gender dysphoria, and the accommodations required for that 
gender transition in the military are far more complicated than 
we may assume.
    This has certainly been the Department's experience with 
the 2016 policy. As a consequence, the Department has concluded 
based on its best military judgment, that sustaining the 2016 
policy for the long-term would degrade military effectiveness, 
and that adjustments were needed in the 2018 policy.
    As new data becomes----
    Ms. Speier. All right, Mr. Stewart----
    Mr. Stewart [continuing]. Available.
    Ms. Speier. You have exceeded your time by about 2 minutes 
so can you wrap up please?
    Mr. Stewart. Yes, ma'am. I sure can.
    As new data becomes available, it better informs our 
assessment risk. The Department is committed to reviewing that 
data in depth as it does with all other situations like this 
condition to inform our future policy considerations.
    And Ms. Chairman, thank you very much for your time.
    [The prepared statement of Mr. Stewart can be found in the 
Appendix on page 104.]
    Ms. Speier. All right, Mr. Kelly.
    Mr. Kelly. Thank you, Madam Chairman.
    And Mr. Stewart can you describe the research that went 
into developing the Mattis policy?
    Mr. Stewart. So the research that was done, basically if 
you look at the materials that we provided you, we had the 
service secretaries and we had all of the vice service chiefs 
take a look at this particular issue, we had outside medical 
experts along with military experts, all basically provided 
information associated with this issue.
    Mr. Kelly. And thank you. And is--this is kind of a joint 
question, so answer them both together. Is the Mattis policy a 
ban, and we had one of the witnesses testified earlier that 
said you couldn't temporarily transfer to go to school or be 
promoted or change branches or those things or be commissioned, 
are those things true--so is it a ban, and is the statement 
that people who were grandfathered in can't transfer between 
branches and those things, is that correct under the Mattis 
policy?
    Mr. Stewart. So the DC Circuit Court of Appeals determined 
that it is not a ban on transgender persons serving in the 
military, so that is the first thing.
    The second question, sir?
    Mr. Kelly. The second question, one of the witnesses 
testified that you couldn't be commissioned from the Green to 
Gold, you couldn't transfer to a temporary school that is 
outside and come back in, if you are grandfathered in. Is that 
in fact the case or be promoted?
    Mr. Stewart. You are grandfathered under the current 2018 
policy. Everyone that is currently--has a diagnosis of gender 
dysphoria will be brought in and they will be grandfathered.
    Mr. Kelly. And Vice Admiral Bono, could you explain some of 
the comorbidities that are associated with gender dysphoria?
    Admiral Bono. Yes, sir. Thank you. So the comorbidities 
that we have seen associated with gender dysphoria are 
typically depression, suicidal ideation, and anxiety.
    Mr. Kelly. And then two other, these are real short answer 
questions. What is the average period of non-deployability for 
a service member undergoing gender reassignment?
    Admiral Bono. So it depends on the types of procedures they 
have had. For some--as you heard, some of the panelists talk 
about, the recovery time is very quick, sometimes just a few 
weeks from 4 to 6 and sometimes 8 weeks; with some of the more 
extensive surgery, that can kind of go from 3 to 6 months.
    Mr. Kelly. And then Mr. Stewart, final question, how often 
does the Department of Defense review medical and behavioral 
health accession and retention standards and what is the 
process for this review?
    Mr. Stewart. Okay. Every 2 years, well actually every 4 
years but for this particular instance we will be reviewing it 
every 2 years. And what we do is basically look at data 
associated with those individuals that have gender dysphoria 
and we will basically, if we need to, make adjustments at that 
time.
    Mr. Kelly. And Madam Chairman, I thank the witnesses for 
being here.
    And I yield.
    Ms. Speier. Thank you, Mr. Kelly.
    You know, I am truly astonished by your presentation so I 
must say, you have just had the opportunity to listen to 5 
transgender service members, 10, 15 years, many of them 
leaders, many of them deployed multiple times and can you 
honestly tell us that their service is any less valuable than 
those of their peers?
    Mr. Stewart. I don't think anyone's questioning their 
service, ma'am.
    Ms. Speier. Well, but by virtue of having this policy you 
are questioning the ability of transgender persons to serve.
    Mr. Stewart. Ma'am, this policy is not about transgender 
individuals. This is about a diagnosis. This is about gender 
dysphoria. We have members out there that are transgenders that 
are serving in their biological sex, meeting the standards as 
they are, so----
    Ms. Speier. So much like Don't Ask, Don't Tell, you can 
serve if you are transgender but you're going to only be able 
to serve in your birth gender so you are going to have to hide 
the fact that you are transgender, you are not going to be able 
to transition, that is a policy that is you know, belongs in 
the dark ages, not in a military of the 21st century.
    Mr. Stewart. And as far as Don't Ask, Don't Tell--Don't 
Ask, Don't Tell I believe was not based on a medical condition 
so this particular policy is written for a medical condition 
called gender dysphoria.
    Ms. Speier. So Vice Admiral Bono you referenced that there 
is this higher percentage of depressions. We already know, in 
the military generally that we have a serious problem with 
suicides, so the question I have, all military applicants are 
screened for suicidality and mental health so trans service 
members would have to meet those standards, would they not?
    Admiral Bono. Yes. For those conditions.
    Ms. Speier. So to somehow suggest that they suffer from 
depression would be, they suffer from depression just like 
other service members may suffer from depression?
    Admiral Bono. We do see an association with those 
conditions with the diagnosis of gender dysphoria, and what we 
have learned with our transgender individuals is they do have a 
slightly higher rate of behavioral health visits than non-
gender dysphoric service members.
    Ms. Speier. Mr. Stewart, in your written testimony you cite 
a single EO [equal opportunity] complaint caused by the 
presence of a transgender service member. Yes or no, did the 
Department of Defense perform any systematic surveys or 
comparisons of the actual experiences of military units with or 
without transgender personnel?
    Mr. Stewart. Well, ma'am, we don't basically----
    Ms. Speier. Yes or no?
    Mr. Stewart. Repeat the question?
    Ms. Speier. You weren't listening, I guess?
    Mr. Stewart. Yes, ma'am.
    Ms. Speier. Did the Department of Defense perform any 
systematic surveys or comparisons of the actual experiences of 
military units with or without transgender personnel?
    Mr. Stewart. Not to my knowledge.
    Ms. Speier. Yes or no, are you aware that the Chairman of 
the Joint Chiefs of Staff and all four service chiefs testified 
to Congress last year that there were no, I repeat, no issues 
related to cohesion, discipline, or morale due to open 
transgender service?
    Mr. Stewart. So I believe you asked him about the service 
of transgender individuals, you did not ask him about gender 
dysphoria.
    Ms. Speier. Did they all testify that there were no issues 
related to cohesion and discipline?
    Mr. Stewart. Since we don't track transgender individuals 
it would be tough for them to determine whether this particular 
situation that we are talking about with a medical condition 
would apply.
    Ms. Speier. Have you conducted a study on how many of the 
commanders of the over 14,700 estimated transgender service 
members have faced issues of readiness or unit cohesion?
    Mr. Stewart. Not to my knowledge.
    Ms. Speier. You have not? Do commanders at all levels have 
to constantly deal with medical readiness issues and unit 
cohesion challenges?
    Mr. Stewart. Yes. They do.
    Ms. Speier. Transgender service members have been serving 
openly and deploying for the last 2\1/2\ years. Many medical 
conditions such as pregnancy, gall bladder disease, 
appendicitis, broken bones, make service members temporarily 
non-deployable. Is that correct?
    Mr. Stewart. That is correct.
    Ms. Speier. And if you are pregnant, there is evidently a 
16-month period in which you are not deployable?
    Mr. Stewart. I couldn't answer that. Admiral Bono.
    Admiral Bono. That is correct.
    Ms. Speier. That is correct.
    So why is the issue of temporary non-deployability of trans 
service members seen as something different than that of any of 
the service member with a particular condition?
    Mr. Stewart. So the information that we have is that time 
off or the time away from duty for the Army was about a 167 
days, for the Air Force it was about 159. We provide common 
standards that promote fairness.
    Ms. Speier. You just heard testimony today from each of the 
five service members that their time off was de minimis. Many 
of them did it during holiday breaks, vacation time, 7 weeks, 2 
weeks, I mean, that does not reflect the experiences that you 
are suggesting.
    Mr. Stewart. No, ma'am. And basically, we had a panel of 
experts take a look at this and this is what they came up with.
    Ms. Speier. Well, did they talk to these five persons?
    Mr. Stewart. I am sure they did but I don't know, I wasn't 
around during that timeframe.
    Ms. Speier. All right. So if I understand you correctly, 
Mr. Stewart, under the proposed policy, which is not in effect 
right now because of the court staying it which allows the 2016 
policy to stay in effect, correct?
    Mr. Stewart. That is correct.
    Ms. Speier. But under the new proposed policy, individuals 
who had gender dysphoria, transitioned genders, and no longer 
have dysphoria wouldn't be able to join the military. Is that 
right?
    Mr. Stewart. That is correct.
    Ms. Speier. Doesn't that sound like a ban for a transgender 
service?
    Mr. Stewart. No, ma'am. What it does sound like----
    Ms. Speier. Sounds like----
    Mr. Stewart. It is a----
    Ms. Speier [continuing]. That to me.
    Mr. Stewart. Basically we are being consistent in our 
handling of a medical condition.
    Ms. Speier. The reference to a year for hormone therapy, 
Vice Admiral Bono, according to the testimony by the expert 
medical professional, he suggested that it was much less than 
the 1 year that the military is suggesting. Can you speak to 
that?
    Admiral Bono. Yes, ma'am. Thank you. So when we put 
together the original clinical guidelines, we were using at the 
time the Endocrine Society's recommendations. This is a very 
quickly evolving field of care and so it is very possible that 
other experience now shows that it can be compressed and 
shorter than a year.
    And as Mr. Stewart mentioned, this would be one of those 
aspects that we would review as we looked at this.
    Ms. Speier. So when might you do that?
    Mr. Stewart. We will probably do it every 2 years, ma'am, 
as when we go and review policies.
    Ms. Speier. So when was the last policy, 2018?
    Mr. Stewart. Yes, ma'am.
    Ms. Speier. So it will be 2020?
    Mr. Stewart. Yes, ma'am.
    Ms. Speier. All right.
    Ms. Trahan.
    Mrs. Trahan. Thank you, Madam Chair.
    Mr. Stewart, I am going to be quick because I have a lot to 
cover in my 5 minutes.
    First, thank you for your service, I appreciate you being 
here today.
    Before this assignment you were an Air Force Major General, 
you logged 4,700 hours of flight time in your 37 years in 
Active Duty and in the Reserves. I am sure the Air Force 
invested a lot in you and it paid off. Do you know the total 
cost of training a combat-ready pilot today?
    Mr. Stewart. No.
    Mrs. Trahan. The cost to train a single fifth-generation 
fighter pilot is approximately $11 million today, and I am sure 
you are aware of the stunning pilot shortage that we have--1 
out of 4 of all Army, Air Force, and Marine Corps billets are 
empty and today we learned that we missed our recruiting goals. 
Are you aware of any transgender pilots currently serving 
openly, and if so how many?
    Mr. Stewart. I wouldn't be aware of that because again you 
have to identify yourself as a transgender. We don't track it 
in the Department of Defense.
    Mrs. Trahan. Fair. Would you say that this ban is actually 
counterproductive to the readiness of the military by hindering 
our retention ability, given the critical shortages that we 
already have?
    Mr. Stewart. And so, we were dealing with what you are 
calling a ban, but what we are talking about is a medical 
condition which we are basically going ahead and making it fair 
for all as far as accession standards.
    Mrs. Trahan. Okay. Well, I just want to talk about the cost 
and our readiness a little bit because there is a risk, as we 
learned here today, of people who have transitioned, if they 
leave service not being able to come back and that is an 
enormous cost to our military and to our readiness.
    So despite what the President will have us believe, the 
medical costs of a transition-related health care, it is 
actually not making a dent in the Department of Defense's 
overall healthcare budget. The DOD has spent only $8 million on 
transgender-related medical costs since 2016. That is only 
0.016 percent of one year of the Pentagon's total annual health 
care spend. So if I am doing my math right, the retraining cost 
of losing just one transgender military pilot is 3 times more 
than the entire transition-related care for the military in one 
year. So my question is and you probably have figured it out, 
why would the Department of Defense spend more money replacing 
pilots we can't even afford to lose, when we are already so 
short on pilots that we are in a readiness crisis?
    Mr. Stewart. And so for those individuals there are a 
waiver available but ultimately the retention piece is a very, 
very difficult issue as far as retaining them, but we aren't 
talking about a transgender individual and kicking them out 
just based on the fact that they are self-identified as a 
transgender. The whole policy here that we have been looking at 
is a condition and so ultimately like all medical----
    Mrs. Trahan. I----
    Mr. Stewart [continuing]. Conditions----
    Mrs. Trahan. I am so sorry, I think the outcomes will be 
the same. We are actually going to add to the shortage that we 
already have today and put our readiness at risk but I am going 
to switch gears.
    Vice Admiral Bono, are you aware that the American Medical 
Association and the American Psychiatric Association, amongst 
others, have issued statements reflecting the consensus that a 
transgender ban has no basis in medical evidence or in science?
    Admiral Bono. I am aware of those statements, yes, ma'am.
    Mrs. Trahan. Can you think of any other instance where all 
major health organizations have issued such a resounding 
statement on military health policy?
    Admiral Bono. Well, I do know that those studies and their 
statements are out there. One of the things that we have been 
doing though is following the progress of our own transgender 
service members and being able to watch to see what their 
transition and their care encompasses and so much of what we 
have learned has been based on the care that we have been able 
to give our transgender service members in the past couple of 
years.
    And that is something that is slightly different from 
what----
    Mrs. Trahan. How so, how is it divergent from what the 
major medical--
    Admiral Bono. So thank you, so what we have observed with 
our transgender service members is their behavioral health 
visits are 22 visits per person as opposed to 2 for the non-
gender dysphoric service members.
    We also see a higher rate of suicidal ideation and so we 
take those things into consideration as we are looking at the 
data and the statements from those professional societies.
    Mrs. Trahan. Thank you.
    I have got nothing further.
    I yield back.
    Ms. Speier. Ms. Davis.
    Mrs. Davis. Thank you to both of you for being here.
    I wonder, Mr. Stewart, if you could share with us, about 
how many transgender persons have accessed into the military 
since January 1st of 2018?
    Mr. Stewart. So the individuals with gender dysphoria, we 
have had since the 1st of January, 12 accessions, 7 have 
shipped, and we have about 228 applicants out there.
    Mrs. Davis. Is it 12 accessions?
    Mr. Stewart. Yes, ma'am, 12 accessions, 7 have shipped of 
that 12, and we have 228 applicants.
    Mrs. Davis. And I know, you are focusing on the dysphoria 
rather than the transgender, I appreciate----
    Mr. Stewart. Yes, ma'am.
    Mrs. Davis [continuing]. From your desire to----
    Mr. Stewart. Please can I say this?
    The fact that an individual has served and is a 
transgender, we don't ask an individual what their gender 
identity is and so it is difficult for us to go ahead and 
attract an individual unless they self-identify.
    The whole policy here that we have been talking about to 
date is on a medical condition and that is what we are really 
focusing this change on, is a medical condition, not a ban on 
transgender individuals because as all of them have stated 
here, they all are great Americans and they have served 
honorably.
    Mrs. Davis. I think the difficulty is that if there are 
individuals and we know, we have individuals who want to serve 
their country, they qualify, they have gone through candidate 
training school, whatever it is that they have done, that this 
is to their core something that they want to do, if we say then 
that they suffer from dysphoria and therefore we cannot have 
them in the service, what they are seeking is to be 
transgender. I mean, we are kind of saying you know, it is not 
like some other medical condition so much but we can have them 
serve with great dignity and distinction, once they are through 
the process of dysphoria, correct?
    I mean, that is true that they may suffer from that in your 
eyes, but the fact that they are seeking to change that medical 
diagnosis----
    Mr. Stewart. Yes, ma'am. I understand----
    Mrs. Davis. As part of a----
    Mr. Stewart [continuing]. Your point.
    Mrs. Davis [continuing]. Service, as part of their ability 
to go on and serve.
    Mr. Stewart. Sure.
    Mrs. Davis. And to go on and go up the career ladders.
    Mr. Stewart. And so ultimately, what we are talking about 
is accommodation from standards. We have other illnesses--or 
excuse me, conditions out there that basically do not have the 
benefits associated with having direct access into the 
military. So for instance other surgeries that are done out 
there aren't treated the same as this particular condition 
which is called gender dysphoria. So if I had a surgery on the 
outside, it would be disqualifying to bring that individual in 
under the current standards.
    What we have right now with the 2016 accessions standard 
associated with gender dysphoria is a special case where we 
have an individual that we can bring in and if they meet our 
standards for a certain amount of time, then we will bring them 
on; not the case for say a heart condition or something else.
    Mrs. Davis. But what we are looking at is the possibility 
that that will change and that those individuals then would not 
be able to go on and serve their country, in a way that they 
have a calling and that they are contributing to our national 
security.
    What is it about that in terms of what is required for them 
to make that transition, which is a difficult one, but to make 
the transition, that you find--not you personally but that the 
agency finds so problematic?
    I mean, is it the cost alone? The fact that people are 
going for more sessions with a therapist, I think what we want 
is for our military who are serving well to access those 
services.
    Admiral Bono. Yes, ma'am.
    Mrs. Davis. One of the greatest problems that we have had 
is that they don't and that they feel that it is not acceptable 
and what happens, some of them, as we know, commit suicide and 
their families are affected so greatly by that.
    So I think that there is this disconnect that we are 
talking about where, if we could see that as a transition that 
is not unlike some other possibilities that people bring to the 
service, that we would have the benefit of their service 
because when we go through you know, what is different.
    What I am afraid of is that this is sending such a strong 
message to people who want to serve and who are going to decide 
that they are not wanted because we are not offering the 
services that they need. I just don't see that we need to do 
that.
    And I guess the other question very, very--it looks like my 
time is up. I am sorry but okay well, we will go through, but 
it sounds like this decision was not one that people took part 
in and that that is a problem.
    Mr. Stewart. They actually were. They had a number of 
individuals to include the members that are currently serving, 
transgenders, they also had before the panel of experts both 
civilian and medical experts that came before them. They had 
commanders of transgender individuals and so we had a large 
number of individuals before the panel of experts that were 
basically looking at all of these issues before coming up with 
the current policy.
    Ms. Speier. Mr. Stewart, thank you----
    Mr. Stewart. Yes, ma'am.
    Ms. Speier. Ms. Davis.
    Mr. Stewart would you make available to this committee the 
transcripts of that particular panel discussion please?
    Mr. Stewart. So as you know, we have current litigation 
going on right now--so would that be deliberative process?
    Okay. Because I have a legal expert here with me to make 
sure that we don't mess up our case which is currently in the 
courts.
    As I understand, the deliberative process privilege is what 
I am being told in the back.
    Ms. Speier. Maybe you can ask your legal expert to come 
forward and join you there for a moment. If----
    Mr. Stewart. Sure.
    Ms. Speier [continuing]. You are making--if you have to--
through discovery, don't you have to make your information 
available to the other side?
    Mr. Hatch. Yes. there is a requirement that we are in 
discovery in the litigation. We have--the Department of Justice 
on behalf of the Department of Defense--has invoked the 
privilege, the deliberative process privilege, over the details 
of the materials that were presented to the panel of experts.
    Now, there is general information that is made available in 
the DOD report but the specifics of who recommended what----
    Ms. Speier. You can redact the names.
    Mr. Hatch. Invoked privilege.
    Ms. Speier. I think that what--you are invoking a privilege 
but has the court upheld it?
    Mr. Hatch. No. It is currently being litigated----
    Ms. Speier. That is being litigated. All right, presuming 
that you lose in that regard and that information becomes 
available to the other side in discovery, then you should be in 
a position to make it available to this committee?
    Mr. Hatch. That has been our position.
    Ms. Speier. All right. And you will do so, I presume, once 
that decision is made, if it is made in favor of the plaintiffs 
in the case?
    Mr. Hatch. Again, we are represented by the Department of 
Justice and they would----
    Ms. Speier. All right.
    Mr. Hatch [continuing]. Make that----
    Ms. Speier. We'll know where to go.
    Mr. Hatch [continuing]. Available.
    Ms. Speier. Let me just make a couple of points. As I 
understand it, this is for you, Vice Admiral Bono, right now it 
is required that trans service members meet weekly with a 
therapist, is that correct? Whether they need it or not?
    Admiral Bono. I am not aware of the treatment plans for 
each of the transgender service members who are diagnosed with 
gender dysphoria.
    Ms. Speier. Well, that is what I have been told, that they 
are required to meet weekly with a therapist and in some 
respects, experts are saying that that is likely over-
prescription?
    Admiral Bono. I am sorry, ma'am. I----
    Ms. Speier. Maybe, could you look into that----
    Admiral Bono. Yes, ma'am.
    Ms. Speier [continuing]. For us and report back.
    [The information referred to can be found in the Appendix 
on page 121.]
    Ms. Speier And then I am also being told that gender 
dysphoria is treated like other highly treatable conditions. 
There is post-op, patients are stable, and able to serve 
according to the American Medical Association and the American 
Psychiatric Association?
    Admiral Bono. Yes, ma'am.
    Ms. Speier. That is the case?
    Admiral Bono. Yes, ma'am. The additional thing for our 
service members however is that, after they have undergone any 
kind of treatment, there is always a medical assessment to make 
sure that they are fit for full duty and so we follow all the 
clinical guidelines from all the different societies that 
oversee these types of surgeries or any types of surgeries and 
treatments, because part of the treatment is also nonsurgical, 
but then our additional assessment for military service members 
regardless if they are transgender individuals or not is to 
make sure that they are completely fit for full duty.
    Ms. Speier. So I think the concern that many of us have is 
that, if you are going to put a subsequent layer of assessment 
that is subjective, it could easily be twisted in a manner that 
could allow for the decision to be made to discharge 
individuals because they don't meet the subsequent review in 
addition to what the AMA [American Medical Association] and APA 
suggest after surgery.
    Maybe I am not making myself clear, if a patient has this 
transition surgery----
    Admiral Bono. Yes, ma'am.
    Ms. Speier [continuing]. And they are stable and are 
allowed to return to Active Duty and those guidelines are 
followed that are available through the American Medical 
Association, what you are saying is in addition to that you do 
yet another assessment to see if they are----
    Admiral Bono. Yes, ma'am. Because part of the service for 
all of our military personnel is that we have to be immediately 
deployable at any time, any place, and many of the places that 
we are sent to are fairly austere or provide fairly rigorous 
environments.
    We just want to make sure that each of our service members 
are in the best condition to serve and that they are not an 
additional risk to their own health or to the safety of other 
service members.
    Generally, the guidelines, the clinical guidelines that we 
follow with the AMA or any other society for a particular 
procedure, generally that already meets the bar of being fit 
for full duty. What we then take into consideration is whether 
or not they will be deploying to places where we may not have 
all of the medical capability or all of the behavioral health 
capability, to continue to provide care if that is needed. So 
our assessment really for fitness for full duty means that they 
will be able to be deployed without any need for additional 
care.
    Ms. Speier. All right. Thank you.
    Ms. Escobar.
    Ms. Escobar. Thank you, Madam Chair.
    Mr. Stewart, I am very curious about this panel and I 
realize that there are some restrictions on us being able to 
see any documentation right away, but can you tell me whether 
to your knowledge were there any dissenting voices on the 
panel?
    Mr. Stewart. I wasn't involved in it so I couldn't answer 
that.
    Ms. Escobar. And it was this panel that drove this policy?
    Mr. Stewart. Yes. The panel of experts basically were put 
together by the Secretary, the Secretary basically got all of 
these experts together to determine what the policy changes 
were going to be.
    Ultimately the Secretary was concerned about the fact 
that--the implementation of this policy, and so he called 
together a panel of experts making sure that we had the right 
accession policy in place to make sure that it met all of his 
lethality standards as far as deployment and those kinds of 
things so.
    Ms. Escobar. So one person, it was the Secretary, made the 
determination about who would serve on the panel, is that your 
understanding?
    Mr. Stewart. As I understand it, the Secretary basically 
called it together and basically identified who the individuals 
were going to be.
    In the advance materials that I provided to you on page 8 
or excuse me 18, will go ahead and really give you a 
descriptive idea of the panel of experts itself. If you turn to 
it, it will actually point out to you that the panel consisted 
of the under secretaries of the military departments, the armed 
services vice chiefs, the Vice Commandant of the Coast Guard, 
and senior enlisted advisors, chaired by at that time, the 
Performing the Duties for the Under Secretary of Defense for 
Personal Readiness.
    Ms. Escobar. And all those individuals work for the 
Secretary of Defense?
    Mr. Stewart. That is correct.
    Ms. Escobar. Okay. So the Secretary's subordinates were 
given direction by the Secretary, I am assuming?
    Mr. Stewart. That is true.
    Ms. Escobar. Okay. In your testimony the written testimony 
on page 2, you state, those who were diagnosed with 
transsexualism while in service would generally be discharged, 
although typically because they suffered from associated 
medical conditions such as depression or anxiety that were also 
a basis for separation. Are depression and anxiety treatable?
    Mr. Stewart. They are. Yes, ma'am.
    Ms. Escobar. Okay. Can you describe what medical rationale 
might have gone into this decision?
    Mr. Stewart. I would defer to the admiral on the medical 
side.
    Admiral Bono. Thank you. So what we did is, we use the same 
criteria that we use for the treatment of depression in any 
service member and so depression or anxiety, we use the same 
standards for that and that is some stability without the need 
for additional medication over a period of time.
    Ms. Escobar. Is every service member who suffers from 
depression or anxiety treated in the same way----
    Admiral Bono. Yes, ma'am.
    Ms. Escobar [continuing]. Essentially, they would be 
discharged?
    Admiral Bono. No, ma'am. Not in that same way. They are 
treated in the same in that they are evaluated, and then a 
treatment plan, and then for each service member, being able to 
be stable from that diagnosis, then they are allowed to 
continue their service.
    Ms. Escobar. But someone who suffers from the condition 
gender dysphoria would be treated differently, in the sense 
that the consequences for their depression and anxiety would 
mean that they would get a different outcome?
    Admiral Bono. So I believe in the new policy, what we are 
looking at is that there would be a period stability of 36 
months if they did have that----
    Mr. Stewart. That is correct.
    Admiral Bono. The diagnosis of gender dysphoria, so if they 
did receive treatment and they were stable for 36 months, then 
they would be considered for accession.
    Ms. Escobar. Has there been any evidence of any 
difficulties in service for transgender service men or service 
women?
    Mr. Stewart. So since we don't really track whether they 
are a transgender, I mean, that is a self-identified condition. 
So in other words the only thing that we are basically looking 
at here is gender dysphoria but we don't track whether a 
service member is identified or self-identified as a 
transgender individual so tracking in the Department of 
Defense, we don't do that.
    Ms. Escobar. Well, if the individuals before us today were 
any indication of the caliber of service member, we are really 
losing out on an incredibly talented group of patriots.
    I have one last question because I have----
    Mr. Stewart. Can I answer that--go ahead
    Ms. Escobar. My time is running, sorry.
    How is this not discrimination?
    Mr. Stewart. We are looking at a condition. We are not 
looking at discriminating against someone who is self-
identifies as a transgender individual.
    Ms. Escobar. I am out of time.
    Ms. Speier. Thank you.
    Mr. Brown.
    Mr. Brown. Thank you.
    Would you please define briefly, gender dysphoria?
    Admiral Bono. Yes, sir. Gender dysphoria is a marked 
incongruence between somebody's identity--gender identity, and 
their gender assigned at birth.
    Mr. Brown. Right. And you said incongruity?
    Admiral Bono. Yes, sir.
    Mr. Brown. And what does that mean?
    Admiral Bono. So the incongruity is often times associated 
with severe distress and an impairment in function.
    Mr. Brown. Okay, fine. So let me ask this question, you 
have got a cisgender male and a transgender male who has not 
transitioned, they show up to enlist. Under the proposed 
policy, both--if the transgender male didn't have gender 
dysphoria, both could enlist into the military right?
    Admiral Bono. Yes.
    Mr. Stewart. That is correct.
    Mr. Brown. Now, if three people show up, cisgender, 
transgender who has undergone transition shows up, can the 
third person, the transgender male who has undergone 
transition, can they enlist under the proposed policy?
    Mr. Stewart. No.
    Mr. Brown. That is the ban. That is the ban. This----
    Mr. Stewart. No, no.
    Mr. Brown. That is----
    Mr. Stewart. No----
    Mr. Brown. Hold on, let me explain----
    Mr. Stewart. I say no, but anything is waiverable so 
ultimately no, on the surface----
    Mr. Brown. Okay, no, no, I understand that. I understand 
that but that is the ban. Yes.
    I show up. I say I am a transgender male----
    Mr. Stewart. Yes.
    Mr. Brown [continuing]. I get to come in.
    Mr. Stewart. No. It is----
    Mr. Brown. But if----
    Mr. Stewart. If you identify----
    Mr. Brown [continuing]. I am transgender----
    Mr. Stewart [continuing]. As a transgender male, we can----
    Mr. Brown. Hold on, let me----
    Mr. Stewart. We don't care----
    Mr. Brown [continuing]. Ask the question. Let me clarify 
because----
    Mr. Stewart. It is the gender dysphoria.
    Mr. Brown. No, no. I am reclaiming my time. Let me re-ask--
--
    Mr. Stewart. Sure.
    Mr. Brown [continuing]. The question. I am a transgender 
male----
    Mr. Stewart. Okay.
    Mr. Brown. I have been through transition----
    Mr. Stewart. Yes.
    Mr. Brown. I want to enlist. Can I enlist in the Army?
    Mr. Stewart. No.
    Mr. Brown. That is a ban then on a transgender male who has 
been under transition. That is where your ban is. That is a 
discrimination.
    Because when you undergo, and tell me if I am right or 
wrong, when you undergo the transition you are addressing 
gender dysphoria, that incongruency that you mentioned, and the 
level of anxiety and depression and all those associated 
morbidities I think you called them, decrease tremendously, is 
that right?
    Admiral Bono. That is correct.
    Mr. Brown. That is correct.
    Admiral Bono. The treatment of transition or the transition 
is the treatment for----
    Mr. Brown. So you have someone who is actually taking the 
steps to address gender dysphoria and yet they are banned from 
entering the military, isn't that right?
    Yes or no?
    Admiral Bono. Yes.
    Mr. Brown. Yes. Okay.
    Mr. Stewart. And so what you have said though is, there was 
surgery done, right?
    Mr. Brown. Look. No, no, the question was answered, yes.
    Mr. Stewart. Well, no.
    Mr. Brown. The transition was done.
    Mr. Stewart. The transition was done.
    Mr. Brown. Yes.
    Mr. Stewart. Ultimately then there was surgery and there 
were other procedures done associated with that, and so what we 
are saying is, that we are providing an accommodation for one 
group of individuals versus another, because if you were to go 
ahead and provide that individual that opportunity now another 
individual who has some other type of surgery like heart 
surgery, something like that, that individual----
    Mr. Brown. I am going to reclaim my time. I am going to 
reclaim my time because we are not talking about heart surgery 
and diabetes. We are talking about a group of Americans who 
identify as transgender.
    I have never seen a group of Americans, okay, who are prone 
due to heart attacks who come lobbying Congress and saying, 
give us the right to serve even though the risk of heart attack 
is very great because I have already had three or four. That is 
mixing apples and oranges and I don't appreciate that.
    I hear about special accommodations, The same thing was 
said about African-Americans when they wanted to enter the Army 
in an integrated Army in 1948. Same thing was said about gay, 
lesbian, and bisexual members that wanted to serve and that is 
where yes, it is like Don't Ask, Don't Tell because there is a 
difference.
    You are a gay, lesbian, bisexual but you don't want to do 
so in the open, you can serve. You are transgender and only if 
you agree not to transition, then you can serve. That is just 
like Don't Ask, Don't Tell.
    So this conversation about, well, we don't ask about 
transgender, we just go for gender dysphoria, and then when 
someone addresses it, they aren't allowed to come into the 
military. That is a problem.
    I yield back the balance of my time.
    Ms. Speier. Mr. Brown, thank you.
    I would like to just follow up on Mr. Brown's questioning 
because it would appear that the issue around transgender is 
this issue around gender dysphoria that is the big concern.
    If someone has already had the surgery, has transitioned, 
the likelihood of gender dysphoria drops dramatically. So to 
Mr. Brown's question, how could you possibly deny that 
individual the opportunity to serve if they want to?
    Mr. Stewart. And I go back to my earlier statement which 
is, a surgery that was done, other treatment that was done for 
that particular individual, that provides an accommodation from 
standards. We have other individuals that would like to access 
that basically have other types of surgeries----
    Ms. Speier. It is a typical----
    Mr. Stewart. And so ultimately ma'am, those particular 
surgeries keep an individual from coming in. I will give you an 
example, an individual that has, as I mentioned before, a heart 
condition and basically has had the surgery, if we were to go 
ahead and let them in--well we don't let them in----
    Ms. Speier. I know, but you are talking, Mr. Stewart, of a 
health condition----
    Mr. Stewart. And what we are talking about here is a health 
condition----
    Ms. Speier. No.
    Mr. Stewart [continuing]. Called gender dysphoria. Yes, 
ma'am?
    Ms. Speier. No, but they don't have gender dysphoria 
anymore, they have taken care of it. They have had the 
transitional surgery.
    Mr. Stewart. And so back to my earlier comment, if they 
have the surgery, other surgeries are disqualifying that we 
have out there in the accession world.
    Admiral Bono. Yes, ma'am, so, there are surgeries----
    Ms. Speier. You are not helping your case, I regret to tell 
you, but go ahead, Vice Admiral.
    Admiral Bono. Thank you. There are certain surgical 
procedures or certain surgeries that people have that are 
already disqualifying for military service and so that is part 
of the consideration is that there are surgical procedures----
    Ms. Speier. Can you give us an example?
    Admiral Bono. Yes, ma'am. So surgery for cancers, those are 
disqualifying for coming into the service. We do know that even 
though somebody may have had a cancer diagnosis and they 
successfully have the surgery which cures their cancer and they 
are in remission, by virtue of the fact that they have had that 
diagnosis and the surgery they are disqualified from military 
service.
    There are other surgical procedures the same way, back 
surgery is another one, so there is a whole range and in this 
case the procedure, the surgical procedures for transition are 
considered disqualifying.
    Ms. Speier. But it is disqualifying in part because if you 
had back surgery, the likelihood of you being able to meet the 
physical standards, or you have cancer and it is in remission 
but it is potentially going to reoccur may impact your ability 
to meet the physical standards. If you have had transition 
surgery and you can meet all the physical standards how can we 
possibly deny that individual from serving? I think you are in 
a difficult position----
    Mr. Kelly. Madam Chair.
    Ms. Speier. Yes.
    Mr. Kelly. If we could at some point, I have accommodated 
and went an hour later and I obviously would at some point if 
we can but there is one condition, if I may comment.
    I had an application for West Point a couple of years ago 
and it happened to be a friend of mine and he had a condition 
where his child was born--and I don't know, the medical 
terminology but it was on the bottom instead of the front and 
that was disqualifying but it was waiver--no, no, not birth--
and if you know, the medical term, please tell me so I don't 
let----
    Admiral Bono. Hypospadias?
    Mr. Kelly. Yes. And it was disqualifying but there is a 
waiver for that process----
    Ms. Speier. Yes.
    Mr. Kelly [continuing]. Like there are any medical 
processes, diabetes or----
    Admiral Bono. Yes.
    Mr. Kelly [continuing]. Scoliosis or flat feet or sleep 
apnea, a list of conditions which are disqualifying from entry 
but there is a waiver for those if you can show that you are 
completely recovered, is that correct, Vice Admiral----
    Admiral Bono. Yes, sir.
    Mr. Kelly [continuing]. Bono?
    Admiral Bono. Yes, sir. That is correct.
    Ms. Speier. All right. Is there any further questions?
    No. All right.
    We want to thank both of our witnesses. Thank all of you 
for attending.
    And this committee hearing stands adjourned.
    [Whereupon, at 6:31 p.m., the subcommittee was adjourned.]

?

      
=======================================================================




                            A P P E N D I X

                           February 27, 2019

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2019

=======================================================================

      
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
=======================================================================
    

    Note: Dr. Ehrenfeld's curriculum vitae has been excerpted due 
to length; the complete curriculum vitae is retained in subcommittee 
files and can be viewed upon request.


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 27, 2019

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MS. SPEIER

    Admiral Bono. The evaluation, diagnosis and treatment of gender 
dysphoria includes an assessment for mental health conditions such as 
anxiety, depression, and substance use disorder; present in high rates 
in persons with gender dysphoria. The number of mental health visits 
included in a transitioning Service members treatment plan is 
determined based on the patient's needs and a mental health 
professional's evaluation and recommendation. The Department policy 
does not dictate a number of visits. Medical care for Service members 
seeking to undergo gender transition is based upon the individual's 
unique health care needs and, following initial evaluation, includes 
counseling and behavioral health services, medical support, and the 
establishment of a treatment plan.
    Policy and guidance for medical care and treatment of Service 
members who are transgender is provided in the following documents:

    1.  Department of Defense Instruction (DODI) 1300.28. In Service 
Transition for Transgender Service Members
    2.  Assistant Secretary of Defense (Health Affairs (ASD(HA)) 
Memorandum. Guidance for Treatment of Gender Dysphoria for Active and 
Reserve Component Members
    3.  Army Directive 2016-35. Army Policy on Military Service of 
Transgender Soldiers
    4.  SECNAVIST 1000.11. Service of Transgender Sailors and Marines
    5.  Air Force Policy Memorandum (AFPM2016-36-10). In-Service 
Transition for Airmen Identifying as Transgender
    6.  Endocrine Treatment of Transsexual Persons: An Endocrine 
Society Clinical Practice Guideline

    Service members seeking initial treatment for gender dysphoria 
require an assessment that is comprehensive in nature and excludes 
other causes for dysphoria. The evaluation, diagnosis and treatment of 
gender dysphoria also includes an assessment for mental health 
conditions such as anxiety, depression, and substance use disorder; 
present in high rates in persons with gender dysphoria. DOD/MHS 
treatment plans and clinical practice adhere to the Endocrine Society's 
Standard of Care, ``Endocrine Treatment of Transsexual Persons: An 
Endocrine Society Clinical Practice Guideline,'' as the primary 
guideline to provide consistent, evidence based care to transitioning 
patients. The Endocrine Society's comprehensive recommendations include 
the establishment of a diagnosis of gender dysphoria by a mental health 
professional, psychotherapy or counseling, and real live experience 
(RLE).
    The number of mental health visits included in a transitioning 
Service members treatment plan is determined individually, based on the 
patient's needs and a mental health professional's evaluation and 
recommendation. None of the policies, guidelines or memorandums 
utilized in the DOD/MHS evaluation, diagnosis and treatment of gender 
dysphoria mandate weekly mental health evaluations or visits. [See page 
40.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 27, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. Who was on the Panel of Experts?
    Mr. Stewart. The Panel consisted of the Under Secretaries of the 
Military Departments (or officials performing their duties), the Armed 
Services' Vice Chiefs (including the Vice Commandant of the U.S. Coast 
Guard), and the Senior Enlisted Advisors of the Military Services and 
to the Chairman of the Joint Chiefs of Staff, and was chaired by the 
Under Secretary of Defense for Personnel and Readiness or an official 
performing those duties.
    Ms. Speier. Who did the Panel consult with?
    Mr. Stewart. The Panel received support from medical and personnel 
experts from across the Departments of Defense and Homeland Security. 
The Panel also met with and received input from transgender Service 
members, commanders of transgender Service members, military medical 
professionals, and civilian medical professionals with experience in 
the care and treatment of individuals with gender dysphoria.
    Ms. Speier. Did the Panel consult with the American Psychiatric 
Association, American Psychological Association, or American Medical 
Association or any other medical professionals with expertise in gender 
dysphoria?
    Mr. Stewart. The Panel met with and received input from transgender 
Service members, commanders of transgender Service members, military 
medical professionals, and civilian medical professionals with 
experience in the care and treatment of individuals with gender 
dysphoria.
    Ms. Speier. In your view, what are the substantial risks associated 
with the accessions and retention of transgender persons? Can you 
please provide any examples that since June 30, 2016, these issues have 
arisen within the military and describe how the DOD or services handled 
these situations?
    Mr. Stewart. There are many transgender Service members serving 
today with honor and distinction who are meeting military standards, 
including the standards associated with their biological sex. Anyone 
who can meet the military's demanding standards without special 
accommodations can and should be able to serve. The new policy 
prohibits the denial of accession or involuntary separation solely on 
the basis of gender identity and ensures equal application of standards 
regardless of gender identity in order to maintain military 
effectiveness and lethality. As DOD does not track Service members by 
whether they identify as transgender, I could not provide you specific 
examples. However, I have the utmost confidence in our military leaders 
to treat all persons with dignity and respect in all situations and to 
adhere to the policies of the Department.
    Ms. Speier. In your view, what are the specific issues that could 
undermine readiness, disrupt unit cohesion, and impose an unreasonable 
burden on the military? Can you please provide any examples that since 
June 30, 2016, these issues have arisen within the military and 
describe how the DOD or services handled these situations?
    Mr. Stewart. The military is focused on worldwide deployability, 
combat readiness, and lethality. It is not an organization that can 
regularly accommodate severe medical conditions requiring sustained 
medical intervention and exceptions to policy that may limit mobility, 
deployability, and individual readiness. As the Department's 2018 
report explains, persons who have a history of gender dysphoria, who 
have undergone medical treatments for gender transition, or who are 
unable or unwilling to meet the military's standards associated with 
their biological sex, could adversely impact military readiness and 
effectiveness and should be evaluated for the purposes of either 
accession or retention. As DOD does not track Service members by 
whether they identify as transgender, I cannot provide you specific 
examples. However, I have the utmost confidence in our military leaders 
to treat all persons with dignity and respect in all situations and to 
adhere to the policies of the Department.
    Ms. Speier. Were any government officials outside of DOD or the 
Department of Homeland Security involved in the Report or the 
Memorandum to the President? If so, who were these officials and what 
was the basis for their involvement?
    Mr. Stewart. The Department's 2018 Report (pages 17-18) provides 
information regarding the Panel of Experts process generally.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DAVIS
    Mrs. Davis. Has the DOD ever provided treatment for gender 
dysphoria (or any of the related procedures or hormone therapies) to 
non-citizens? Were OCO funds used? What was the total cost?
    Mr. Stewart. As it is not something we track, we are not aware of 
whether any gender dysphoria treatment has been provided to non-
citizens at this time. The MHS provides health care services to all 
eligible individuals. This provision of care is generally funded 
through the Defense Health Program appropriation.
    Mrs. Davis. Has the DOD ever provided treatment for gender 
dysphoria (or any of the related procedures or hormone therapies) to 
non-citizens? Were OCO funds used? What was the total cost?
    Admiral Bono. As it is not something we track, we are not aware of 
whether any gender dysphoria treatment has been provided to non-
citizens at this time. The MHS provides health care services to all 
eligible individuals. This provision of care is generally funded 
through the Defense Health Program appropriation.

                                  [all]
</pre></body></html>
